                              NCUA 2011
                     FINANCIAL STATEMENT AUDITS
                                 FOR
                            OPERATING FUND
                         SHARE INSURANCE FUND
                       CENTRAL LIQUIDITY FACILITY
              COMMUNITY DEVELOPMENT REVOLVING LOAN FUND




                 For the year ended December 31, 2011

        Audited Financial Statements            Audit Report Number

Operating Fund                                          OIG-12-01
Share Insurance Fund                                    OIG-12-02
Central Liquidity Facility                              OIG-12-03
Community Development Revolving Loan Fund               OIG-12-04


                           February 16, 2012




                          William A. DeSarno
                          Inspector General
                           EXECUTIVE SUMMARY
PURPOSE AND SCOPE             The National Credit Union Administration (NCUA)
                              Office of Inspector General contracted with the
independent public accounting firm of KPMG LLP to perform the financial
statement audits of the NCUA Operating Fund, the Share Insurance Fund, the
Central Liquidity Facility, and the Community Development Revolving Loan Fund
for the year ended December 31, 2011.

The purpose of the audits is to express an opinion on whether the financial
statements are fairly presented. The independent firm also reviewed the internal
control structure and evaluated compliance with laws and regulations, as part of
their audit.

The audits were performed in accordance with generally accepted auditing
standards and Government Auditing Standards issued by the Comptroller
General of the United States. The Inspector General contracted with KPMG LLP
in June 2009 to perform the financial statement audits mentioned above. The
contract was for 2009, with options for 2010 and 2011. The Inspector General
was the contracting officer for this contract.

AUDIT RESULTS          KPMG LLP expressed unqualified opinions, stating that the
                       financial statements present fairly, in all material respects,
the financial position of the NCUA Operating Fund, the Share Insurance Fund,
the Central Liquidity Facility, and the Community Development Revolving Loan
Fund at December 31, 2011, and the results of operations for the year then
ended.

Although KPMG LLP did not express an overall opinion of the Funds’ compliance
with laws and regulations, their testing of compliance did not disclose any
significant deviations. The financial statement audit for the Temporary Corporate
Credit Union Stabilization Fund will be issued in a separate report in the near
future.
National Credit Union
Administration
Operating Fund
Financial Statements as of and for the Years Ended
December 31, 2011 and 2010, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

TABLE OF CONTENTS

                                                                Page

INDEPENDENT AUDITORS' REPORT ON FINANCIAL STATEMENTS             1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
 DECEMBER 31, 2011 AND 2010

 Balance Sheets                                                  2

 Statements of Revenues, Expenses and Changes in Fund Balance    3

 Statements of Cash Flows                                        4

 Notes to Financial Statements                                  5-17

INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL
                                                                 18
 OVER FINANCIAL REPORTING

INDEPENDENT AUDITORS' REPORT ON COMPLIANCE AND OTHER MATTERS     20
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                         Independent Auditors’ Report on Financial Reporting


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Operating
Fund (OF) as of December 31, 2011 and 2010, and the related statements of revenues, expenses and
changes in fund balance, and cash flows (hereinafter referred to as “ financial statements”) for the years
then ended. These financial statements are the responsibility of the OF’s management. Our responsibility is
to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the OF’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Administration Operating Fund as of December 31, 2011
and 2010, and its operations, changes in fund balance, and cash flows for the years then ended in
conformity with U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated February 14,
2012, on our consideration of the OF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, and contracts and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.




February 14, 2012




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2011 AND 2010
(Dollars in thousands)
                                                                                     2011      2010
ASSETS

CASH AND CASH EQUIVALENTS (Note 4)                                                   $36,982   $32,645

DUE FROM NATIONAL CREDIT UNION SHARE INSURANCE
 FUND (Note 8)                                                                         1,182     2,857

EMPLOYEE ADVANCES                                                                        43        50

OTHER ACCOUNTS RECEIVABLE (Note 8)                                                      885       349

PREPAID EXPENSES AND OTHER ASSETS                                                      1,015     1,371

ASSETS HELD FOR SALE (Note 7)                                                           397       696

FIXED ASSETS — Net of accumulated depreciation of $25,231 and $23,330
  as of December 31, 2011 and 2010, respectively (Note 5)                             31,760    31,673

INTANGIBLE ASSETS — Net of accumulated amortization of $8,333 and
  $6,441 as of December 31, 2011 and 2010, respectively (Note 6)                       7,367     5,945

TOTAL                                                                                $79,631   $75,586

                                                        Please let us know the
LIABILITIES AND FUND BALANCE                            final outcome of the
                                                        $1.1M contingent liability
LIABILITIES:
                                                        that is currently in AP.
 Accounts payable and accrued other liabilities                                       $7,074    $5,043
 Obligations under capital leases (Note 9)                                                58        24
 Accrued wages and benefits                                                            9,295     8,581
 Accrued annual leave                                                                 12,699    11,401
 Accrued employee travel                                                                 628       532
 Notes payable to National Credit Union Share Insurance Fund (Note 8)                 15,756    17,097

       Total liabilities                                                              45,510    42,678

COMMITMENTS AND CONTINGENCIES (Notes 8, 9, 12 & 13)

FUND BALANCE                                                                          34,121    32,908


TOTAL                                                                                $79,631   $75,586

See accompanying notes to financial statements.




                                                    -2-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010
(Dollars in thousands)

                                                           2011       2010

 REVENUES:
  Operating fees                                         $ 86,197   $ 86,754
  Interest                                                     18         63
  Other                                                     1,200      1,234

       Total revenues                                      87,415     88,051

 EXPENSES, NET (Note 8):
  Employee wages and benefits                              62,194     59,379
  Travel                                                    9,809      9,163
  Rent, communications, and utilities                       1,936      1,773
  Contracted services                                       6,326      6,194
  Depreciation and amortization                             4,695      5,154
  Administrative                                            1,242        782

       Total expenses                                      86,202     82,445

 EXCESS OF REVENUES OVER EXPENSES                           1,213      5,606

 FUND BALANCE—Beginning of year                            32,908     27,302

 FUND BALANCE—End of year                                $ 34,121   $ 32,908

 See accompanying notes to financial statements.




                                                   -3-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010
(Dollars in thousands)

                                                                                                           2011          2010
CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                                                     $     1,213    $ 5,606
 Adjustments to reconcile excess of revenues over expenses to net cash provided by operating activities:
  Depreciation and amortization                                                                             4,695         5,154
  Provision for loss on disposal of employee residences held for sale                                         305           244
  Loss on fixed asset retirements                                                                               2           380
  (Increase) decrease in assets:
    Due from National Credit Union Share Insurance Fund                                                     1,675         (599)
    Employee advances                                                                                           7          116
    Other accounts receivable                                                                                (536)         (75)
    Prepaid expenses and other assets                                                                         356         (361)
  (Decrease) increase in liabilities:
    Accounts payable                                                                                        2,031         2,007
    Accrued wages and benefits                                                                                714         1,472
    Accrued annual leave                                                                                    1,298         1,479
    Accrued employee travel                                                                                    96           353

      Net cash provided by operating activities                                                            11,856        15,776

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of fixed assets                                                                                 (6,146)       (5,649)
 Purchases of employee residences held for sale                                                            (1,197)       (1,386)
 Proceeds from sale of employee residences held for sale                                                    1,192           941
      Net cash used in investing activities                                                                (6,151)       (6,094)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments of notes payable to National Credit Union Share Insurance Fund                                 (1,341)       (1,341)
 Principal payments under capital lease obligations                                                           (27)          (17)

      Net cash used in financing activities                                                                (1,368)       (1,358)

NET INCREASE IN CASH AND CASH EQUIVALENTS                                                                   4,337         8,324
CASH AND CASH EQUIVALENTS—Beginning of year                                                                32,645        24,321

CASH AND CASH EQUIVALENTS—End of year                                                                 $ 36,982       $ 32,645

SUPPLEMENTAL DISCLOSURE OF NONCASH ACTIVITIES -
 Acquisition of equipment under capital lease                                                         $       61     $          -

CASH PAYMENTS FOR INTEREST                                                                            $      344     $     397

See accompanying notes to financial statements.




                                                           -4-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010

1.      ORGANIZATION AND PURPOSE

The National Credit Union Administration Operating Fund (the “Fund”) was created by the
Federal credit union Act of 1934. The Fund was established as a revolving fund in the United
States Treasury under the management of the National Credit Union Administration (NCUA)
Board for the purpose of providing administration and service to the Federal credit union system.

A significant majority of the Fund’s revenue is comprised of operating fees paid by Federal
credit unions. Each Federal credit union is required to pay this fee based on its prior year asset
balances and rates set by the NCUA Board.

2.      SIGNIFICANT ACCOUNTING POLICIES

Basis of Presentation – The Fund has historically prepared its financial statements in
accordance with accounting principles generally accepted in the United States of America
(GAAP), based on standards issued by the Financial Accounting Standards Board (FASB), the
private sector standards setting body. The Federal Accounting Standards Advisory Board
(FASAB) is the standards setting body for the establishment of GAAP with respect to the
financial statements of Federal Government entities. FASAB has indicated that financial
statements prepared based upon standards promulgated by FASB may also be regarded as in
accordance with GAAP for Federal entities that have issued financial statements based upon
FASB standards in the past.

Basis of Accounting – The Fund maintains its accounting records in accordance with the accrual
basis of accounting. As such, the Fund recognizes income when earned and expenses when
incurred. In addition, the Fund records investment transactions when they are executed and
recognizes interest on investments when it is earned.

Related Parties – The Fund exists within NCUA and is one of five funds managed by the
NCUA Board. The other funds managed by the Board, deemed related parties, are:

     a) The National Credit Union Share Insurance Fund (NCUSIF)
     b) The National Credit Union Administration Temporary Corporate Credit Union
        Stabilization Fund (TCCUSF)
     c) The National Credit Union Administration Central Liquidity Facility (CLF)
     d) The National Credit Union Administration Community Development Revolving Loan
        Fund (CDRLF).




                                                -5-
The Fund supports these related parties by providing office space, information technology
services, and supplies, as well as paying employees’ salaries and benefits. Certain types of
support are reimbursed to the Fund by NCUSIF and CLF based on allocation formulas, as
described in Note 8.

Cash Equivalents – Cash equivalents are highly liquid investments with original maturities of
three months or less. The Federal credit union Act permits the Fund to invest in United States
Government securities or securities with both principal and interest guaranteed by the United
States Government. All investments in 2011 and 2010 were cash equivalents and are stated at
cost, which approximates fair value.

Fixed and Intangible Assets – Buildings, furniture, equipment, computer software, and
leasehold improvements are recorded at cost. Computer software includes the cost of labor
incurred by both external and internal programmers, and other personnel in the development of
the software. Capital leases are recorded at the present value of the future minimum lease
payments. Depreciation and amortization are computed by the straight-line method over the
estimated useful lives of buildings, furniture, equipment, and computer software, and the shorter
of either the estimated useful life or lease term for leasehold improvements and capital leases.
Estimated useful lives are 40 years for the building and three to ten years for the furniture,
equipment, computer software, and leasehold improvements.

Long-lived Assets/Impairments – Fixed and intangible assets, subject to amortization, are
reviewed for impairment whenever events or changes in circumstances indicate that the carrying
amount of an asset may not be recoverable. If the carrying value of the long-lived asset or asset
group is not recoverable, an impairment is recognized to the extent that the carrying value
exceeds its fair value. Fair value is determined through various valuation techniques, including
discounted cash flow models, quoted market values, and third party independent appraisals, as
considered necessary.

For impairments, the Fund’s policy is to identify assets that are no longer in service, obsolete, or
need to be written down, and perform an impairment analysis based on FASB Accounting
Standards Codification (ASC) 360-10-35, Property, Plant, and Equipment, requirements.
Subsequent adjustment to individual asset values are made to correspond with any identified
changes in useful lives.

Assets Held for Sale – The Fund holds certain real estate held for sale. Such held for sale assets
are ready for immediate sale in their present condition. Real estate held for sale is recorded at the
fair value less cost to sell. If an asset’s fair value less cost to sell—based on a review of
available financial information including but not limited to appraisals, markets analyses, etc.—is
less than its carrying amount, the carrying value of the asset is adjusted to its fair value.

Gains on disposition of real estate are recognized upon sale of the underlying asset. The Fund
evaluates each real estate transaction to determine if it qualifies for gain recognition under the
full accrual method. If the transaction does not meet the criteria for the full accrual method, the
appropriate deferral method is used.




                                                -6-
Accounts Receivable – Receivables include employee travel advances, amounts due from the
NCUSIF and CLF, as well as a non-recurring $381,000 rent incentive associated with an office
lease in Alexandria, Virginia. Amounts are stated at face value, as there have been no historical
losses and there are no anticipated losses.

Accounts Payable and Accrued Other Liabilities– The Fund incurs administrative expenses
and liabilities for programs pertaining to related parties that are controlled by the NCUA Board.
Accruals are made as expenses are incurred. Accrued other liabilities include contingent
liabilities, as described in Note 12.

Accrued Benefits – The Fund incurs expenses for retirement plans, employment taxes, workers
compensation, transportation subsidies, and other benefits mandated by law. Corresponding
liabilities recorded contain both short-term and long-term liabilities, including liabilities under
the Federal Employees’ Compensation Act (FECA). This act provides income and medical cost
protection to covered Federal civilian employees injured on the job, employees who have
incurred a work-related occupational disease, and beneficiaries of employees whose death is
attributable to a job-related injury or occupational disease.

Operating Fees – Each federally chartered credit union is assessed an annual fee based on their
assets as of the preceding 31st day of December. The fee is designed to cover the costs of
providing administration and service to the Federal credit union system. The Fund recognizes
this operating fee revenue ratably over the calendar year.

Revenue Recognition – Interest revenue and other revenue relating to Freedom of Information
Act (FOIA) fees, sales of publications, parking income, and rental income is recognized when
earned.

Income Taxes – The Fund is exempt from Federal income taxes under Section 501(c)(1) of the
Internal Revenue Code.

Leases – Operating leases are entered into for the acquisition of office space and equipment as
part of administering NCUA’s program. The cost of operating leases is recognized on the
straight-line method over the life of the lease and includes, if applicable, any reductions resulting
from incentives such as rent holidays. The same method is used to recognize income from
operating leases. Certain office space for which NCUA is a lessee is subject to escalations in
rent, as described in Note 9.

Fair Value of Financial Instruments – The following method and assumption was used in
estimating the fair value disclosures for financial instruments:

Cash and cash equivalents, receivables from related parties, employee advances, other accounts
receivable, accounts and notes payable to NCUSIF, and other accounts payable are recorded at
book values, which approximate their respective fair values.




                                                -7-
Use of Estimates – The preparation of financial statements in conformity with GAAP requires
management to make estimates and assumptions that affect the reported amounts of assets and
liabilities, disclosure of contingent liabilities at the date of the financial statements, and the
reported amounts of revenues and expenses incurred during the reporting period. Significant
estimates include the determination of the FECA liability, certain intangible asset values, and if
there is any determination of a long-lived asset impairment, the related measurement of the
impairment charges.

Commitments and Contingencies – Liabilities for loss contingencies arising from claims,
assessments, litigation, fines and penalties, and other sources are recorded when it is probable
that a liability has been incurred and the amount can be reasonably estimated. Legal costs
incurred in connection with loss contingencies are expensed as incurred.

Advertising Costs – Per FASB ASC 720-35-50, Other Expenses - Advertising Costs consist
primarily of radio and Internet advertisements. Advertising costs are expensed as incurred. The
Fund enters into certain contracts for the purpose of advertising. In 2011 and 2010, advertising
expenses amounted to approximately $248,000 and $1,434,000, respectively.

3.     NEWLY IMPLEMENTED ACCOUNTING STANDARDS

In January 2010, FASB issued Accounting Standards Update (ASU) 2010-06, Fair Value
Measurements and Disclosure (Topic 820): Improving Disclosures about Fair Value
Measurements to improve disclosures related fair value measurements. The update requires
reporting entities to make new disclosures about recurring or nonrecurring fair value
measurements, including significant transfers into and out of level 1 and level 2 fair value
measurements, and information on purchases, sales, issuances, and settlements on a gross basis
in the reconciliation of level 3 fair value measurements. The accounting standard update is
effective for reporting periods beginning after December 15, 2009, except for level 3
reconciliation disclosures, which are effective for periods beginning after December 15, 2010.
Adoption of the accounting standard update as it relates to level 1 and level 2 fair value
disclosures impacted the Fund’s financial statements. Level 3 fair value adjustments occur for
assets held for sale, which represents homes from relocated employees. This adoption did not
have a material impact on the Fund’s balance sheets or statements of operation.

In July 2010, FASB issued Accounting Standards Update 2010-20, Disclosures about the Credit
Quality of Financing Receivables and the Allowance for Credit Losses, providing amendments to
ASC Topic 310, Receivables. The objective of these amendments is for an entity to provide
disclosures that facilitate financial statement user’s evaluation of the following: 1) the nature of
credit risk inherent in the entity’s portfolio of financing receivable, 2) how that risk is analyzed
and assessed in arriving at the allowance for credit losses, and 3) the changes and reasons for
those changes in the allowance for credit losses. The existing disclosures are amended to require
disclosures about an entity’s financing receivables on a disaggregated basis. The amendments
also require additional disclosures about financing receivables. This adoption did not have a
material impact on the Fund’s balance sheets or statements of operation.




                                                -8-
In 2011, the Fund adopted the ASU 2011-04, Amendments to Achieve Common Fair Value
Measurement and Disclosure Requirements in GAAP and International Financial Reporting
Standards, to the accounting standards on Fair Value Measurements and Disclosures (FASB
ASC Topic 820). The amendment requires common fair value measurement and disclosure in
GAAP and International Financial Reporting Standards. Consequently, the amendments change
the wording used to describe many of the requirements in GAAP for measuring fair value and
disclosing information about fair value measurements. ASU 2011-04 will be effective for the
Fund’s financial statements as of and for the year ended December 31, 2012. This adoption will
not have a material impact on the Fund’s balance sheets or statements of operation.

4.      CASH AND CASH EQUIVALENTS

The Fund’s cash and cash equivalents as of December 31, 2011 and 2010 are as follows (in
thousands):

                                                                          2011              2010

     Deposit with U.S. Treasury                                       $      240       $      104
     U.S. Treasury Overnight Investments                                  36,742           32,541

     Total                                                            $ 36,982         $ 32,645

As a revolving fund within the U.S. Treasury, the Operating Fund does not hold any cash or cash
equivalents outside of Treasury.

5.      FIXED ASSETS

Fixed assets, including furniture and equipment, are comprised of the following as of
December 31, 2011 and 2010 (in thousands):

                                                                       2011                2010

      Office building and land                                    $   46,336       $    45,039
      Furniture and equipment                                          9,394             8,996
      Leasehold improvements                                             376                 -
      Equipment under capital leases                                      99               141

       Total                                                          56,205            54,176

      Less accumulated depreciation                                   (25,231)         (23,330)
      Assets under construction                                           786              827

      Fixed assets — net                                          $   31,760       $    31,673

Depreciation expense for the years ended December 31, 2011 and 2010 totaled $2,407,000 and
$2,076,000, respectively.



                                              -9-
Assets under construction primarily represent costs incurred related to building improvements to
the King Street NCUA headquarters office space.

6.      INTANGIBLE ASSETS

Intangible assets are comprised of the following as of December 31, 2011 and 2010 (in
thousands).

                                                                   2011              2010

Internal-Use software                                          $    13,187       $    10,276
Less accumulated amortization                                       (8,333)           (6,441)

Total                                                                4,854             3,835

Internal-Use software-in development                                 2,513             2,110

Intangible assets — net                                        $     7,367       $     5,945



Internal-use software is computer software that is either acquired externally or developed
internally. Amortization expense for the years ended December 31, 2011 and 2010 totaled
$2,288,000 and $3,078,000, respectively.

Internal-use software that is in development represents costs incurred from the customization of
software purchased from external vendors for internal use as well as the cost of software that is
developed in-house. This includes upgrades to NCUA’s online 5300 data call report system as
well as the exam system AIRES, among other software developments.

7.      ASSETS HELD FOR SALE

Real estate available for sale purchased by the Fund is from employees enrolled in the agency’s
home purchase program who are unable to sell their homes in a specified time period. It is the
agency’s intent to dispose of these properties as quickly as possible. Sales of homes are
generally expected to occur within one year, pending market forces. Currently, the Fund owns
three homes. Ongoing costs to maintain properties are expensed as incurred. The balance of real
estate available for sale as of December 31, 2011 and 2010 was $397,000 and $696,000,
respectively, net of impairment charges of $133,000 and $164,000 as of December 31, 2011 and
December 31, 2010, respectively.




                                              - 10 -
8.     RELATED PARTY TRANSACTIONS

(a) Transactions with NCUSIF

Certain administrative services are provided by the Fund to NCUSIF. The Fund charges
NCUSIF for these services based upon an annual allocation factor approved by the NCUA Board
and derived from a study of actual usage. The allocation factor was 100% of the expenses of the
Office of Corporate Credit Unions to the extent that it exceeds the actual operating fees paid by
Federal corporate credit unions, plus 58.9% of all other expenses to NCUSIF for 2011 and 57.2%
for 2010. The cost of the services allocated to NCUSIF, which totaled $129,985,000 and
$113,584,000 for 2011 and 2010, respectively, is reflected as a reduction of the corresponding
expenses in the accompanying financial statements. These transactions are settled monthly. As
of December 31, 2011 and 2010, amounts due from NCUSIF, under this allocation method,
totaled $1,182,000 and $2,857,000, respectively.

In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a 30-year secured
term note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a
building in 1993. Interest costs incurred were $344,000 and $397,000 for 2011 and 2010,
respectively. The notes payable balances as of December 31, 2011 and 2010 were $15,756,000
and $17,097,000, respectively. The current portion of the long term debt is $1,341,000 for both
December 31, 2011 and 2010, respectively.

The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The
average interest rates during 2011 and 2010 were 2.10% and 2.24%, respectively. The interest
rates as of December 31, 2011 and 2010 were 2.01% and 2.14 %, respectively.

The secured term note requires principal repayments as of December 31, 2011 as follows (in
thousands):

     Years Ending                                                                    Secured
     December 31                                                                    Term Note
     2012                                                                            $     1,341
     2013                                                                                  1,341
     2014                                                                                  1,341
     2015                                                                                  1,341
     2016                                                                                  1,341
     Thereafter                                                                            9,051

     Total                                                                           $    15,756


(b) Transactions with CLF

Certain administrative services are provided by the Fund to CLF. The Fund pays CLF’s
employee salaries and related benefits, as well as CLF’s portion of building and operating costs.
Reimbursements of these expenses are determined by applying a ratio of CLF full-time


                                              - 11 -
equivalent employees to the NCUA total, with settlement and payment occurring quarterly. All
other CLF reimbursement expenses are paid annually. The costs of the services provided to CLF
were $637,000 and $483,000 for December 31, 2011 and 2010, respectively, and are reflected as
a reduction of the corresponding expenses in the accompanying financial statements.

Other accounts receivable include $171,000 and $183,000 of amounts due from the CLF as of
December 31, 2011 and 2010, respectively.

(c) Support of CDRLF

The Fund supports the administration of programs under CDRLF by paying related personnel
and other associated costs. The estimation of administrative expenses includes personnel related
costs, travel, training, telephone, supplies, printing, and postage.

For the years ending December 31, 2011 and 2010, administrative support to CDRLF is
estimated at (in thousands):

                                                                              2011             2010

    Personnel                                                             $      331       $      387
    Other                                                                         20               16

    Total                                                                 $      351       $      403


(d) Support of TCCUSF

The Fund supports the administration of programs under TCCUSF by paying related personnel
and other associated costs. The estimation of administrative expenses includes personnel related
costs, travel, training, telephone, supplies, printing, and postage.

For the years ending December 31, 2011 and 2010, administrative support to TCCUSF is
estimated at (in thousands):

                                                                          2011             2010

  Personnel                                                           $       3,674    $        5,716
  Other                                                                         104               142

  Total                                                               $       3,778    $        5,858




                                             - 12 -
(e) Federal Financial Institutions Examination Council (FFIEC)

NCUA is one of the five Federal agencies that fund FFIEC operations. Under FFIEC’s charter,
NCUA’s Chairman is appointed as a Member and currently serves as its Chairman. FFIEC was
established on March 10, 1979 as a formal inter-agency body empowered to prescribe uniform
principles, standards, and report forms for the Federal examination of financial institutions by
NCUA, the Board of Governors of the Federal Reserve System, the Federal Deposit Insurance
Corporation, the Office of the Comptroller of the Currency, the Consumer Financial Protection
Bureau, and the State Liaison Committee. FFIEC was also established to make
recommendations to promote uniformity in the supervision of financial institutions.
Additionally, FFIEC provides training to staff employed by Member agencies; the Member
agencies are charged for these trainings based on use. For the years ended December 31, 2011
and 2010, FFIEC assessments totaled $828,000 and $873,000, respectively. FFIEC’s 2012
budgeted assessments to NCUA total $886,000.

(f) Real Estate Available for Sale

The Fund purchases homes from employees enrolled in the agency’s home purchase program
who are unable to sell their homes in a specified time period, as mentioned in Note 7.

9.     LEASE COMMITMENTS

Description of Leasing Agreements - The Fund has entered into lease agreements with vendors
for the rental of office space and office equipment, which includes laptops, printers, monitors,
and copiers.

Operating Leases – The Fund leases a portion of NCUA’s office space under lease agreements
that will continue through 2015. Office rental charges amounted to approximately $1,129,000
and $566,000, of which approximately $665,000 and $324,000 were reimbursed by NCUSIF for
2011 and 2010, respectively. In addition, the Fund leases laptop computers and other office
equipment under operating leases with lease terms that will continue through 2016.

Capital Leases – The Fund leases copier equipment under lease agreements that run through
2016. Amounts presented in the table below include $8,000 of imputed interest.




                                              - 13 -
The future minimum lease payments to be paid over the next five years as of December 31,
2011, before reimbursements, are as follows (in thousands):


Years Ending                                                       Operating            Capital
December 31                                                         Leases              Leases

2012                                                               $    1,663       $         20
2013                                                                    1,448                 14
2014                                                                      995                 14
2015                                                                      508                 13
2016                                                                        -                  5
Thereafter                                                                  -                  -

Total                                                              $    4,614       $         66

Based on the allocation factor approved by the NCUA Board for 2012, NCUSIF is expected to
reimburse the Fund for approximately 59.3% of the future operating lease payments.
The Fund, as a lessor, holds operating lease agreements with three tenants, each of whom rents a
portion of the Fund’s building for retail space. The leases carry five year terms with escalating
rent payments. The last of these leases is set to expire in 2015.

The future minimum lease payments to be received from these non-cancelable operating leases at
December 31, 2011 are as follows (amounts in thousands):

Years Ending
December 31                                                                     Rent Payments

2012                                                                            $            562
2013                                                                                         576
2014                                                                                         518
2015                                                                                          72
2016                                                                                           -
Thereafter                                                                                     -

Total                                                                           $           1,728

10.     RETIREMENT PLANS

Eligible employees of the Fund are covered by Federal Government retirement plans—either the
Civil Service Retirement System (CSRS) or the Federal Employees Retirement System (FERS).
Both plans are defined benefit retirement plans covering all of the employees of the Fund. FERS
is comprised of a Social Security Benefits Plan, a Basic Benefits Plan, and a Savings Plan.
Contributions to the plans are based on a percentage of an employee’s gross pay. Under the


                                              - 14 -
Savings Plan, employees may also elect additional contributions up to $16,500 in 2011, and the
Fund will match up to 5% of the employee’s gross pay. In 2011 and 2010, the Fund’s
contributions to the plans were approximately $18,211,000 and $15,775,000, respectively, of
which approximately $10,726,000 and $9,024,000, respectively, was allocated to NCUSIF.

These defined benefit plans are administered by the U.S. Office of Personnel Management
(OPM), which determines the required employer contribution level. The Fund does not account
for the assets pertaining to the above plans, and does not have actuarial data with respect to
accumulated plan benefits or the unfunded liability relative to eligible employees. These
amounts are reported by OPM and are not allocated to individual employers.

11.       FAIR VALUE MEASUREMENTS

The following disclosures of the estimated fair values are made in accordance with the
requirements of FASB ASC 820 Fair Value Measurements and Disclosures. Fair value is the
amount that would be received to sell an asset, or paid to transfer a liability in an orderly
transaction between market participants at the measurement date.

The accounting standards established a fair value hierarchy that prioritizes the inputs to valuation
techniques used to measure fair value. The hierarchy gives the highest priority to unadjusted
quoted prices in active markets for identical assets or liabilities (level 1 measurements) and the
lowest priority to measurements involving significant unobservable inputs (level 3
measurements). The three levels of the fair value hierarchy are as follows:

      •   Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or
          liabilities that the Fund has the ability to access at the measurement date
      •   Level 2 inputs are inputs other than quoted prices included within level 1 that are
          observable for the asset or liability, either directly or indirectly
      •   Level 3 inputs are unobservable inputs for the asset or liability.

The level in the fair value hierarchy within which a fair value measurement in its entirety falls is
based on the lowest level input that is significant to the fair value measurement in its entirety.

The Fund has no financial instruments that are subject to fair value measurement on a recurring
basis.




                                                 - 15 -
The following table presents the carrying amounts and established fair values (in thousands) of
the Fund’s assets held for sale as of December 31, 2011 and 2010. The impairment charges are
recorded within the statement of revenues, expenses and changes in fund balance and represent
non-recurring fair value measures.

                                 2011                                   2010


                                           Total                                 Total
                    Amortized Aggregate Impairment        Amortized Aggregate Impairment
                    Cost Basis Fair Value Charges         Cost Basis Fair Value Charges

Assets held for sale $   397 $         397 $       133    $     696 $      696   $       164

Assets held for sale – Assets held for sale represents residences from relocating employees and
is presented at fair value. The fair value measurement recorded during the period includes
pending purchase contracts, the lower of list prices or appraisals if less than six months old (if no
pending purchase contracts exist), or recent market analyses (if no recent list prices or appraisals
are readily available). Additionally, the fair value incorporates an estimated 10 percent reduction
in the fair value to recognize expenses associated with closing costs. The Fund believes that
these measurements fairly reflect the most current valuation of the assets. Accordingly, the Fund
uses level 3 inputs to measure the fair value of these investments.

The carrying values approximate the fair values of certain financial instruments as of
December 31, 2011 and 2010, were as follows (in thousands):

                                                        2011                       2010
                                               Carrying Estimated         Carrying Estimated
                                               Amount Fair Value          Amount Fair Value
      Cash and cash equivalents                 $36,982      $36,982       $32,645      $32,645
      Due from NCUSIF                             1,182        1,182         2,857        2,857
      Employee advances                              43           43            50           50
      Obligation under capital lease                 58           58            24           24
      Notes payable to NCUSIF                    15,756       15,756        17,097       17,097

Cash and Cash Equivalents – The carrying amounts for cash and cash equivalents financial
instruments approximates fair value as the short-term nature of these instruments does not lead to
significant fluctuations in value. Cash equivalents are U.S. Treasury overnight investments.

Due from NCUSIF – The carrying amounts for the due from NCUSIF financial instruments
approximates fair value, as the amount is scheduled to be paid is within the first quarter of fiscal
year 2012.

Employee Advances – The carrying amounts for receivables from employees’ financial
instruments approximates fair value, as the amount is scheduled to be paid in fiscal year 2012.




                                                 - 16 -
Obligation under Capital Lease – The carrying amounts for the remaining obligations owed on
capital leases financial instruments approximates fair value because the underlying interest rates
approximates rates currently available to the Fund.

Notes Payable to NCUSIF – The carrying amounts for notes payable to NCUSIF financial
instruments approximates fair value due to its variable rate nature.

12.    CONTINGENCIES

NCUA recognizes contingent liabilities when a past event or transaction has occurred, a future
outflow or other sacrifice of resources is probable, and the future outflow or sacrifice of
resources is measurable. NCUA is party to various routine administrative proceedings, legal
actions, and claims brought against it, which has or may ultimately result in settlements or
decisions against the agency. For those matters where an estimate is possible and the loss is
probable, such amount has been accrued in other liabilities as of December 31, 2011.

13.    COLLECTIVE BARGAINING AGREEMENT

NCUA has a collective bargaining agreement (CBA) with the National Treasury Employees
Union (NTEU) that became effective on November 1, 2011. NTEU is the exclusive
representative of approximately 80% of NCUA employees. This agreement will remain in effect
for a period of three years from its effective date and will be automatically renewable for
additional one year periods until otherwise renegotiated by the parties.

14.    SUBSEQUENT EVENTS

Subsequent events have been evaluated through February 14, 2012 which is the date the financial
statements were available to be issued, and management determined that there are no other items
to disclose.




                                              - 17 -
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting

Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheets of the National Credit Union Administration Operating Fund (OF) as
of December 31, 2011 and 2010 and the related statements of revenues, expenses, and changes in fund
balance, and cash flows (hereinafter referred to as “financial statements”) for the years then ended, and
have issued our report thereon dated February 14, 2012.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.
The management of the OF is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2011 audit, we considered the OF’s internal control over financial
reporting by obtaining an understanding of the OF’s internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the financial statements,
but not for the purpose of expressing an opinion on the effectiveness of the OF’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of the OF’s internal
control over financial reporting. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.
Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.
Exhibit I presents the status of prior year significant deficiency.
This report is intended solely for the information and use of the addressees, the fund’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.



February 14, 2012

                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                                                                         Exhibit I

                    NATIONAL CREDIT UNION ADMINISTRATION
                              OPERATING FUND

                            STATUS OF PRIOR YEAR FINDING



      2010 Finding                  Deficiency Type        2011 Status
 Improvements Needed in
Financial Accountings and         Significant Deficiency     Closed
    Reporting Process
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                    Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheets of the National Credit Union Administration Operating Fund (OF) as
of December 31, 2011 and 2010, and the related statements of revenues, expenses, and changes in fund
balance, and cash flows (hereinafter referred to as “ financial statements”) for the years then ended, and
have issued our report thereon dated February 14, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the OF is responsible for complying with laws, regulations and contracts applicable to
the OF. As part of obtaining reasonable assurance about whether the OF’s financial statements are free of
material misstatement, we performed tests of the OF’s compliance with certain provisions of laws,
regulations and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in
the preceding sentence, and we did not test compliance with all laws, regulations and contracts applicable
to the OF. However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, the fund’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




February 14, 2012




                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
National Credit Union Share
Insurance Fund
Financial Statements as of and for the Years Ended December 31, 2011 and 2010
NATIONAL CREDIT UNION SHARE INSURANCE FUND

TABLE OF CONTENTS



                                                               Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS              1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
DECEMBER 31, 2011 AND 2010:

Balance Sheets                                                    2

Statements of Net Cost                                            3

Statements of Changes in Net Position                             4

Statements of Budgetary Resources                                 5

Notes to the Financial Statements                                 6

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL                 24
OVER FINANCIAL REPORTING

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS     25
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                        Independent Auditors’ Report on Financial Statements


Inspector General, National Credit Union Administration and
The Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheet of the National Credit Union Share Insurance Fund
(NCUSIF) as of December 31, 2011 and 2010, and the related statements of net cost and changes in net
position, and statement of budgetary resources (hereinafter referred to as “financial statements”) for the
years then ended. These financial statements are the responsibility of the NCUSIF’s management. Our
responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the NCUSIF’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Share Insurance Fund as of December 31, 2011 and 2010,
and its net costs, changes in net position, and budgetary resources for the years then ended in conformity
with U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated February 15,
2012, on our consideration of the NCUSIF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations and contracts and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.




February 15, 2012



                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
NATIONAL CREDIT UNION SHARE INSURANCE FUND

BALANCE SHEETS
As of December 31, 2011 and 2010
(Dollars in thousands)

                                                                                 2011                   2010
ASSETS

INTRAGOVERNMENTAL
  Fund Balance with Treasury (Note 2)                                        $             423      $           1,551
  Investments, Net - U.S. Treasury Securities (Note 3)                              11,392,576             10,848,272
  Accounts Receivable - Note due from the National
     Credit Union Administration Operating Fund (Note 4)                                  15,756                 17,097
  Accounts Receivable - Other                                                                 10                    -
  Accrued Interest Receivable (Note 3)                                                    81,707                 72,359
Total Intragovernmental Assets                                                      11,490,472             10,939,279

PUBLIC
  Accounts Receivable - Capitalization Deposits from Insured
    Credit Unions, Net (Note 4)                                                               30                    183
  Accounts Receivable - Premium Assessments from Insured
    Credit Unions, Net (Note 4)                                                               73                  2,036
 General Property, Plant, and Equipment, Net                                                  18                     38
 Capital Note Receivable, Net (Note 5)                                                    70,000                    -
 Accrued Interest Receivable - Capital Note (Note 5)                                         150                    -
 Other - Receivables from Asset Management Estates (AMEs), Net (Note 6)                  114,741                143,278
Total Public Assets                                                                      185,012                145,535


TOTAL ASSETS                                                                 $      11,675,484      $      11,084,814

LIABILITIES

INTRAGOVERNMENTAL
  Accounts Payable - Due to the Temporary Corporate Credit Union
      Stabilization Fund                                                     $               -      $               194
  Accounts Payable - Due to the National Credit Union Administration
     Operating Fund (Note 9)                                                               1,182                  2,857
  Other - Distribution Payable to the Temporary Corporate Credit Union
     Stabilization Fund (Note 8)                                                         278,641                    -
Total Intragovernmental Liabilities                                                      279,823                  3,051

PUBLIC
 Accounts Payable                                                                            166                     433
 Other - Insurance and Guarantee Program Liabilities (Note 7)                            606,617               1,225,281
Total Public Liabilities                                                                 606,783               1,225,714


TOTAL LIABILITIES                                                                        886,606               1,228,765
Commitments and Contingencies (Note 7)

NET POSITION
  Contributed Capital (Note 12)                                                         7,805,718              7,485,159
  Cumulative Result of Operations                                                       2,983,160              2,370,890
Total Net Position                                                                  10,788,878                 9,856,049

TOTAL LIABILITIES AND NET POSITION                                           $      11,675,484      $      11,084,814

The accompanying notes are an integral part of these financial statements.




                                                                 2
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF NET COST
For the Years Ended December 31, 2011 and 2010
(Dollars in thousands)

                                                                          2011                 2010
GROSS COSTS
Operating Expenses (Note 9)                                        $           132,358     $      117,004
Interest Expens e on Borrowings (Note 9)                                           -               41,227
Fee on Early Retirement of Borrowings from the National Credit
  Union Administration Central Liquidity Fund (Note 9)                              -                 7,599
Provis ion for Insurance Los ses
  Reserve Expense (Reduction) (Note 7)                                         (525,678)          737,596
  AME Receivable Bad Debt Expens e (Reduction) (Note 6)                          (6,730)           (2,034)
    Total Gros s Cos ts                                                        (400,050)          901,392

LESS EARNED REVENUES
Interest Revenue on Note Receivable from the National Credit
  Union Administration Operating Fund (Note 4)                                     (344)             (397)
Interest Revenue on Capital Note (Note 5)                                          (150)              -
Interest Revenue on Loans (Note 9)                                                  -             (41,227)
Fee on Early Retirement of Loans to Corporates (Note 9)                             -              (7,599)
Ins urance and Guarantee Premium Revenue (Note 9)                                  (543)         (929,952)
    Total Earned Revenues                                                        (1,037)         (979,175)

TOTAL NET COST/(INCOME) OF OPERATIONS                              $           (401,087)   $      (77,783)

The accompanying notes are an integral part of thes e financial s tatements.




                                                       3
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CHANGES IN NET POSITION
For the Years Ended December 31, 2011 and 2010
(Dollars in thousands)

                                                                             2011                   2010
CUMULATIVE RESULTS OF OPERATIONS

Beginning Balances                                                    $         2,370,890       $      1,967,147

BUDGETARY FINANCING SOURCES
Non-Exchange Revenue
  Interest Revenue - Investments (Note 3)                                           226,011                216,921
Other
  Distribution to the Temporary Corporate Credit Union
  Stablization Fund (Note 8)                                                        (278,641)                  -
OTHER FINANCING SOURCES
Non-Exchange Revenue
  Net Unrealized Gain/(Loss) - Investments (Note 3)                               263,813                109,039
Total Financing Sources                                                           211,183                325,960
Net Income from/(Cost of) Operations                                              401,087                 77,783
Net Change                                                                        612,270                403,743
CUMULATIVE RESULTS OF OPERATIONS                                                2,983,160              2,370,890

CONTRIBUTED CAPITAL (Note 12)
Beginning Balances                                                              7,485,159              7,067,139
Change in Contributed Capital                                                     320,559                418,020
CONTRIBUTED CAPITAL                                                             7,805,718              7,485,159

NET POSITION                                                          $        10,788,878       $      9,856,049

The accompanying notes are an integral part of these financial statements.




                                                               4
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF BUDGETARY RESOURCES
For the Years Ended December 31, 2011 and 2010
(Dollars in thousands)


                                                                                      2011                   2010
BUDGETARY RESOURCES (Notes 9, 10, 11 & 14)
Unobligated Balance, brought forward, January 1                                   $     10,430,194       $    9,190,828
Budget Authority:
  Spending Authority from Offsetting Collections:
     Collected                                                                                705,451        11,628,115
     Change in Receivables from Federal Sources                                                 9,358             1,305
Anticipated Nonexpenditure Transfer                                                          (278,641)              -
TOTAL BUDGETARY RESOURCES                                                         $     10,866,362       $   20,820,248

STATUS OF BUDGETARY RESOURCES
Obligations Incurred: Reimbursable                                                $        413,154       $   10,390,054
Unobligated Balance: Exempt from Apportionment                                          10,453,208           10,430,194
TOTAL STATUS OF BUDGETARY RESOURCES                                               $     10,866,362       $   20,820,248

CHANGE IN OBLIGATED BALANCE
Obligated Balance, net:
 Unpaid Obligations, brought forward, January 1                                   $             4,279    $        62,321
 Uncollected Customer Payments from Federal Sources, brought forward, January 1               (72,359)           (71,054)
Total, Unpaid Obligated Balance, brought forward, January 1                                   (68,080)            (8,733)
Obligations Incurred, Net                                                                     413,154         10,390,054
Gross Outlays                                                                                (415,723)       (10,448,096)
Change in Uncollected Customer Payments from Federal Sources                                   (9,358)            (1,305)
TOTAL, UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                               $           (80,007)   $       (68,080)

OBLIGATED BALANCE, NET, END OF PERIOD
 Unpaid Obligations, end of period                                                $             1,710    $         4,279
 Uncollected Customer Payments from Federal Sources, end of period                            (81,717)           (72,359)
TOTAL, UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                               $           (80,007)   $       (68,080)

NET OUTLAYS
Gross Outlays                                                                     $           415,723    $    10,448,096
Offsetting Collections                                                                       (705,451)       (11,628,115)
TOTAL NET OUTLAYS                                                                 $          (289,728)   $    (1,180,019)

The accompanying notes are an integral part of these financial statements.




                                                                       5
 NATIONAL CREDIT UNION SHARE INSURANCE FUND

 NOTES TO FINANCIAL STATEMENTS
 AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010


1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  Reporting Entity
  The National Credit Union Share Insurance Fund (NCUSIF) was created by Title II of the Federal
  Credit Union Act (FCU Act), 12 U.S.C. 1781 et seq., as amended. The NCUSIF was established as a
  revolving fund in the Treasury of the United States (U.S. Treasury), under management of the National
  Credit Union Administration (NCUA) Board of Directors (NCUA Board) for the purpose of insuring
  member share deposits in all Federal Credit Unions (FCUs) and in qualifying state-chartered credit
  unions requesting insurance.

  The NCUA exercises direct supervisory authority over FCUs and coordinates required supervisory
  involvement with the state chartering authorities for state chartered credit unions insured by the
  NCUSIF. Federally insured (insured) credit unions are required to report certain financial and
  statistical information to NCUA on a quarterly basis, and are subject to periodic examination by the
  NCUA. Information derived through the supervision and examination process provides the NCUSIF
  with the ability to identify insured natural person credit unions experiencing financial difficulties that
  may require assistance from the NCUSIF.

  Assistance from the NCUSIF may be in the form of a waiver of statutory reserve requirements,
  liquidity assistance in the form of a guaranteed line of credit pursuant to Section 208 of the FCU Act,
  permanent cash assistance in the form of a subordinated note pursuant to Section 208 of the FCU Act or
  other such form. In some cases, a merger partner for the credit union may be sought. Mergers between
  financially troubled credit unions and stronger credit unions may also require the NCUSIF assistance.
  Merger assistance may be in the form of cash assistance, purchase of certain assets by the NCUSIF,
  and/or guarantees of the values of certain assets (primarily loans). When a credit union is no longer
  able to continue operating and the merger and assistance alternatives are not practical, the NCUSIF will
  liquidate the credit union, pay members’ shares up to the maximum insured amount, and dispose of its
  assets.

  Fiduciary Responsibilities
  Fiduciary activities are the collection or receipt, management, protection, accounting, investment, or
  disposition by the Federal Government of cash or other assets, in which non-federal individuals or
  entities have an ownership interest that the Federal Government must uphold. NCUA’s Asset
  Management and Assistance Center (AMAC) conducts liquidations and performs management and
  recovery of assets for failed credit unions. Assets and liabilities of liquidated credit unions reside in
  Asset Management Estates (AMEs). These assets and liabilities are held in part, for the primary benefit
  of non-federal parties and therefore are considered fiduciary in accordance with Federal Accounting
  Standards Advisory Board (FASAB) Statement of Federal Financial Accounting Standards (SFFAS)
  No. 31, “Accounting for Fiduciary Activities.” Fiduciary assets are not assets of the Federal
  Government and therefore are not recognized on the Balance Sheet. Additionally, NCUA entity assets
  are non-fiduciary.

  Sources of Funding
  Deposits insured by the NCUSIF are backed by the full faith and credit of the United States. The
  NCUSIF has multiple sources of funding. Each insured credit union is required to deposit and maintain
  in the NCUSIF 1.0 percent of its insured shares. The NCUA Board may also assess premiums to all
  insured credit unions, as provided by the FCU Act.

                                                      6
In addition, the NCUSIF has borrowing authority, shared with the Temporary Corporate Credit Union
Stabilization Fund (TCCUSF), from the U.S. Treasury, and the ability to borrow from the NCUA’s
Central Liquidity Facility (CLF).

Recent Legislation
In January 2011, The National Credit Union Authority Clarification Act, Public Law 111-382 (2011),
amended the FCU Act by clarifying NCUA’s authority to make TCCUSF expenditures without
borrowing from the U.S. Treasury.

The National Credit Union Authority Clarification Act amended the FCU Act to permit the NCUA
Board to assess a special premium with respect to each insured credit union in an aggregate amount that
is reasonably calculated to make any pending or future TCCUSF expenditures, in addition to existing
authority to make assessments to repay U.S. Treasury advances. The National Credit Union Authority
Clarification Act also stated that “the Board take into consideration any potential impact on credit union
earnings that such an assessment may have” and requires the premium be paid not later than 60 days
after the date of the assessment. The National Credit Union Authority Clarification Act also amended
the definitions of ‘‘equity ratio’’ and ‘‘net worth,’’ as further described in Note 12.

Basis of Presentation
The NCUSIF’s financial statements have been prepared from its accounting records in accordance with
the FASAB SFFAS. FASAB is recognized by the American Institute of Certified Public Accountants
as the official accounting standards-setting body of the Federal Government. The format of the
financial statements and notes is in accordance with the form and content guidance provided in Office
of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, revised
October 27, 2011.

Consistent with SFFAS No. 34, “The Hierarchy of Generally Accepted Accounting Principles,
Including the Application of Standards Issued by the Financial Accounting Standards Board,” NCUA
applies Financial Accounting Standards Board (FASB) guidance for instances where no applicable
FASAB guidance is available (e.g. securities classified as available-for-sale).

Basis of Accounting
In its accounting structure, the NCUSIF records both proprietary and budgetary accounting
transactions. Following the accrual method of accounting, revenues are recognized when earned and
expenses are recognized when incurred, without regard to the actual collection or payment of cash.

Federal budgetary accounting recognizes the obligation, borrowing authorities, and other fund resources
upon the establishment of a properly documented legal liability, which may be different from the
recording of an accrual-based transaction. The recognition of budgetary accounting transactions is
essential for compliance with legal controls over the use of federal funds and compliance with
budgetary laws.

NCUA, including the NCUSIF, is exempt from requirements under the Federal Credit Reform Act of
1990 (2 U.S.C. Section 661e (a) (1)).




                                                   7
Use of Estimates
The preparation of financial statements in conformity with generally accepted accounting principles
(GAAP) for the Federal Government requires management to make estimates and assumptions that
affect the following:

  •   Reported amounts of assets and liabilities
  •   Disclosure of contingent assets and liabilities at the date of the financial statements
  •   The amounts of revenues and expenses reported during that period.

Actual results could differ from estimates. Significant items subject to those estimates and assumptions
include (i) reserves for probable losses and contingencies related to Insurance and Guarantee Program
Liabilities; (ii) the amount and timing of recoveries, if any, related to any claims paid and settlement of
the guarantee liabilities; and (iii) allowance amounts established for loan loss related to permanent cash
assistance provided to insured credit unions. The current economic environment has increased the
degree of uncertainty inherent in those estimates and assumptions.

Fund Balance with Treasury
Fund Balance with Treasury (FBWT) is the aggregate amount of the NCUSIF’s accounts with the
Federal Government’s central accounts, from which the NCUSIF is authorized to make expenditures
and pay liabilities. The entire FBWT is a revolving fund type.

Investments
Investment securities primarily consist of marketable U.S. Treasury securities of varying maturities
(debt securities). The NCUSIF also holds non-marketable U.S. Treasury overnight securities purchased
and reported at par value, which are classified as held to maturity. All marketable securities are carried
as available-for-sale, in accordance with FASB Accounting Standards Codification (ASC) 320,
“Investments – Debt and Equity Securities.”

Interest earned and unrealized holding gains and losses on U.S. Treasury securities are excluded from
net costs and reported as components of non-exchange revenue. Realized gains and losses from the sale
of available-for-sale securities are determined on a specific identification basis.

The NCUSIF reviews all U.S. Treasury securities that are in an unrealized loss position for other-than-
temporary impairment (OTTI). The NCUSIF evaluates its U.S. Treasury securities on a monthly basis.
An investment security is deemed impaired if the fair value of the investment is less than its amortized
cost. Amortized cost includes adjustments (if any) made to the cost basis of an investment for
accretion, amortization, and previous OTTI. To determine whether impairment is OTTI, the NCUSIF
takes into consideration whether it has the intent to sell the security. The NCUSIF also considers
available evidence to assess whether it more likely than not will be required to sell the debt security
before the recovery of its amortized cost basis. If the NCUSIF intends to sell, or more likely than not
will be required to sell the security before recovery of its amortized cost basis, OTTI shall be
considered to have occurred.

Premiums and discounts are amortized or accreted over the life of the related available-for-sale security
as an adjustment to yield using the effective interest method.

Accounts Receivable
Accounts receivable represent the NCUSIF’s claims for payment from other entities. Gross
receivables are reduced to net realizable value by an allowance for doubtful accounts as further
discussed below. The NCUSIF’s accounts receivable has two components: Intragovernmental and
Public. Intragovernmental accounts receivable represent receivables between the NCUSIF and another

                                                    8
reporting entity within the Federal Government. Public accounts receivable represent accounts
receivable between the NCUSIF and a non-federal entity.

Capitalization Deposits from Insured Credit Unions
Each insured credit union pays to and maintains with the NCUSIF a capitalization deposit amount equal
to 1.0 percent of its insured shares. A receivable and associated non-exchange revenue is recognized
upon invoicing.

Premium Assessments from Insured Credit Unions
The NCUA Board has the statutory authority according to the FCU Act Section 202, Administration of
the Insurance Fund, to assess insured credit unions for a premium charge. The NCUA Board may
assess each insured credit union a premium charge for insurance in an amount stated as a percentage of
insured shares outstanding as of the most recently ended reporting period if the NCUSIF’s equity ratio,
as defined, is less than 1.3 percent. When the NCUA Board projects that the equity ratio will, within
six months, fall below 1.2 percent, the NCUA Board shall establish and implement a restoration plan
within 90 days, which meets the statutory requirements and any further conditions that the NCUA
Board determines appropriate. In order to meet statutory requirements, the plan must provide that the
equity ratio will meet or exceed the minimum amount specified (1.2 percent) before the end of the 8-
year period beginning upon the implementation of the plan (or such longer period as the NCUA Board
may determine to be necessary due to extraordinary circumstances).

Premium receivable refers to premium charge amounts that have been billed to insured credit unions,
but have not been received as of the reporting date. As the premium assessments are collected, the
portion billed on behalf of the TCCUSF is recorded as a payable to the TCCUSF.

Allowance for Doubtful Accounts
An allowance for doubtful accounts is the NCUSIF’s best estimate of the amount of losses in an
existing receivable. Based on an assessment of collectability, the NCUSIF calculates an allowance on
an individual account basis for public accounts receivable. An account may be impaired or written off
if it is probable that the NCUSIF will not collect all principal and interest contractually due. No
allowance is calculated for intragovernmental accounts receivable, as these are deemed to be fully
collectible.

Accrued Interest Receivable
The NCUSIF recognizes accrued interest receivable for amounts of interest contractually earned but not
yet received.

Capital Note Receivable
Capital note receivables represent loans to insured credit unions as authorized by the NCUA Board
under Section 208 of the FCU Act. Any related allowance for loss represents the difference between
the funds disbursed and the expected repayment from the insured credit unions.

Other - Receivables from Asset Management Estates
Receivables from AMEs include claims to recover payments made by the NCUSIF to satisfy
obligations to insured shareholders and to recoup administrative expenses paid on behalf of AMEs.
Any related allowance for loss represents the difference between the funds disbursed and obligations
incurred and the expected repayment from the AMEs pursuant to the liquidation payment priorities set
forth in 12 Code of Federal Regulations (CFR) Section 709.5(b). Assets held by the AMEs are the
main source of repayment of the NCUSIF’s receivables from the AMEs. The recoveries from these
AME assets are paid to the NCUSIF to the extent a receivable is due for share payout obligations and
administrative expenses.


                                                  9
The allowance for losses on receivables from AMEs are based on asset recovery rates, and come from
several sources including:

 •    Actual or pending AME asset disposition data
 •    Asset valuation data based upon the performance, quality, and type of the assets in the portfolio
 •    Estimated liquidation costs based on information from similar recently failed credit unions
 •    Estimated AME specific administrative expenses based upon complexity and expected duration
      of the AME.

Asset recovery rates are evaluated during the year, but remain subject to uncertainties because of
potential changes in economic and market conditions.

Distribution Payable

In accordance with SFFAS No. 5, “Accounting for Liabilities of the Federal Government”, the NCUSIF
records a non-exchange liability, per Section 202(c)(3) of the FCU Act, Distributions from Fund
Required, for unpaid amounts due as of the reporting date, as discussed herein.

Insurance and Guarantee Program Liabilities

In accordance with SFFAS No. 5, all federal insurance and guarantee programs, except social insurance
and loan guarantee programs, should recognize a liability for:

 •    Unpaid claims incurred, resulting from insured events that have occurred as of the reporting date
 •    A contingent liability when an existing condition, situation, or set of circumstances involving
      uncertainty as to possible loss exists, and the uncertainty will ultimately be resolved when one or
      more probable future events occur or fail to occur
 •    A future outflow or other sacrifice of resources that is probable.

The NCUSIF records a contingent liability for potential losses relating to insured credit unions.
Through NCUA’s supervision process, NCUA applies a supervisory rating system to assess each credit
union’s relative health in the adequacy of Capital, the quality of Assets, the capability of Management,
the quality and level of Earnings, and the adequacy of Liquidity (CAMEL), applying a value ranging
from “1” (strongest) to “5” (weakest). The contingent liability is derived by applying expected failures
based on CAMEL ratings and historical loss rates. In addition, credit union specific analysis is
performed on those credit unions where failure is imminent or where additional information is available
that may affect the estimate of losses.

Liabilities for loss contingencies also arise from claims, assessments, litigations, fines, penalties, and
other sources. These loss contingencies are recorded when it is probable that a liability has been
incurred and the amount of the assessment and/or remediation can be reasonably estimated. Legal costs
incurred in connection with loss contingencies are expensed as incurred.

Net Position and Contributed Capital
Each insured credit union pays and maintains with the NCUSIF a capitalization deposit in the amount
equal to 1.0 percent of its insured shares. The NCUSIF reports the capitalization deposits from member
credit unions as contributed capital. This amount is included in the NCUSIF’s Balance Sheets and
Statements of Changes in Net Position.




                                                  10
  Revenue Recognition
  Exchange Revenue
  Exchange revenues arise and are recognized when a Federal Government entity provides goods and
  services to the public or to another Federal Government entity for a price. Exchange revenue primarily
  consists of premium assessments, the purpose of which is to recover the losses of the credit union
  system.

  Non-Exchange Revenue
  Non-exchange revenues are inflows of resources that the Federal Government demands or receives by
  donation. Such revenues are recognized when a specifically identifiable, legally enforceable claim to
  resources arises, to the extent that collection is probable (more likely than not) and the amount is
  reasonably estimable.

  Each insured credit union pays to and maintains with the NCUSIF a capitalization deposit amount equal
  to 1.0 percent of its insured shares. This amount is recognized as non-exchange revenue upon receipt.
  In accordance with SFFAS No. 7, “Accounting for Revenue and Other Financing Sources and Concepts
  for Reconciling Budgetary and Financial Accounting,” interest revenue on investments in U.S. Treasury
  securities is recognized as non-exchange revenue because the main source of funds for investments
  comes from capital deposits. Additionally, unrealized holding gains and losses on investments in U.S.
  Treasury securities are excluded from net costs and reported as a component of non-exchange revenue.

  Tax-Exempt Status

  The NCUSIF is exempt from Federal income taxes under Section 501(c)(1) of the Internal Revenue
  Code.

  Reclassification

  Certain prior year amounts have been reclassified to conform to the current year presentation.

2. FUND BALANCE WITH TREASURY

  FBWT balances and status at December 31, 2011 and 2010, consisted of the following (in thousands):

                                                              2011                       2010

     Total Fund Balance with Treasury: Revolving
     Funds                                            $                 423       $                1,551

     Status of Fund Balance with Treasury:

     Unobligated Balance - Available                  $          10,453,208      $          10,430,194
     Obligated Balances Not Yet Disbursed                             1,710                      4,279
     Non-Budgetary FBWT Accounts                                (10,651,420)               (10,360,563)
     Non-FBWT Budgetary Accounts                                    196,925                    (72,359)
     Total                                            $                 423       $                1,551



  As a revolving fund, the FBWT is used for continuing business-like activities. The NCUSIF collects
  premiums and capitalization deposits, which in turn are invested in U.S. Treasury securities. The
  proceeds are primarily held to cover insurance losses and are also used for merger assistance,
  liquidations, and other administrative expenses, without requirement for annual appropriations. FBWT
  contains monies available for future obligations as well as monies obligated for current activities. Non-

                                                    11
  budgetary FBWT accounts, which consist of investments, reduce the status of fund balance. Non-
  FBWT Budgetary Accounts consist of budgetary receivables and nonexpenditure transfers.

  During 2011, the FBWT account was increased by maturing investments in U.S. Treasury securities.
  The FBWT account was decreased by purchases of U.S. Treasury securities and amounts expended for
  the purposes of the share insurance program. As of December 31, 2011, there were no unreconciled
  differences between U.S. Treasury records and balances reported on the NCUSIF’s general ledger.

3. INVESTMENTS

  The FCU Act, Section 203(c), as amended, provides guidance regarding U.S. Treasury security
  investments. All investments at the NCUSIF pertain to marketable (available-for-sale) U.S. Treasury
  securities of varying maturities and non-marketable (held to maturity) U.S. Treasury daily overnight
  securities. Premiums or discounts on available-for-sale securities are amortized using the effective
  interest method.
  As of December 31, 2011 and 2010, the carrying amount, gross unrealized holding gains, gross
  unrealized holding losses, and fair value of U.S. Treasury securities were as follows:
                                                  Amortized
                                                  (Premium)          Interest        Investments, Net   Net Unrealized      Carrying/
                                   Cost            Discount         Receivable             (Par)         Gain (Loss)        Fair Value
  (Dollars in thousands)


    As of December 31, 2011:
    Available-for-Sale         $   10,560,623 $       (177,145) $         81,707 $         10,120,000 $        450,200 $       10,833,678
    Held to Maturity                 558,898              n/a                    -           558,898               n/a           558,898
      Total                    $   11,119,521 $       (177,145) $         81,707 $         10,678,898 $        450,200 $       11,392,576



    As of December 31, 2010:
    Available-for-Sale         $   10,127,327 $       (135,992) $         72,359 $          9,720,000 $        186,387 $       10,177,722
    Held to Maturity                 670,550              n/a                    -           670,550               n/a           670,550
      Total                    $   10,797,877 $       (135,992) $         72,359 $         10,390,550 $        186,387 $       10,848,272



  Maturities of U.S. Treasury securities as of December 31, 2011 and 2010 were as follows:

                                                                          2011                                      2010
  (Dollars in thousands)                                                Fair value                                Fair value
  Held to Maturity (Overnights)                                 $               558,898                    $              670,550
  Available-for-sale:
    Due prior to one year                                                            1,627,172                              1,627,609
    Due after one year through five years                                            7,785,740                              7,190,675
    Due after five years through ten years                                           1,420,766                              1,359,438
                                                                $                11,392,576                $               10,848,272



  There were no realized gains or losses in 2011 and 2010.




                                                              12
  The following table presents gross unrealized losses on investment securities, for which OTTI has not
  been recognized, in addition to the fair values of those securities, aggregated by investment
  classification and length of time the investments have been in a loss position, at December 31, 2011 and
  2010.
                                                           Duration of Losses - Less than 12 months
                                             Unrealized                   Unrealized
     (Dollars in thousands)                   Losses                        Gains                   Fair Value

     As of December 31, 2011:
     Available-for-sale:
     U.S. Treasury securities      $                         (72) $                450,272   $             10,833,678

     As of December 31, 2010:
     Available-for-sale:
     U.S. Treasury securities      $                      (50,119) $               236,506   $             10,177,722



4. ACCOUNTS RECEIVABLE

  Intragovernmental – Accounts Receivable
  Note Due from the NCUA Operating Fund
  In 1992, the NCUSIF lent approximately $42 million to the NCUA Operating Fund, pursuant to a
  30-year note secured by the NCUA premises in Alexandria, Virginia. Interest income recognized was
  approximately $344 thousand and $397 thousand for 2011 and 2010, respectively. The note receivable
  balance as of December 31, 2011 and 2010 was approximately $15.8 million and $17.1 million,
  respectively.

  The variable rate on the note is equal to the NCUSIF’s prior-month yield on investments. The average
  interest rate during 2011 and 2010 was 2.10 percent and 2.24 percent respectively. The interest rate as
  of December 31, 2011 and 2010 was 2.01 percent and 2.14 percent, respectively.

  As of December 31, 2011, the above note requires principal repayments as follows (in thousands):
                                Years Ending                                  Secured
                                December 31                                  Term Note

                                2012                                   $                1,341
                                2013                                                    1,341
                                2014                                                    1,341
                                2015                                                    1,341
                                2016                                                    1,341
                                Thereafter                                              9,051

                                Total                                  $              15,756

  Public – Accounts Receivable
  Capitalization Deposits from Insured Credit Unions
  As of December 31, 2011 and 2010, the capitalization deposits due from insured credit unions were $30
  thousand and $183 thousand, respectively.




                                                              13
  Premium Assessments from Insured Credit Unions
  As of December 31, 2011 and 2010, assessments due from insured credit unions were $73 thousand and
  $2.0 million, respectively.

  As none of these amounts were deemed uncollectible, the allowance for doubtful accounts on public
  accounts receivable as of December 31, 2011 and 2010 was zero.

5. CAPITAL NOTE RECEIVABLE

  As of December 31, 2011, the NCUSIF had two outstanding capital notes due from insured credit
  unions. The capital note receivables totaled $80.0 million and the related allowance for loss was $10.0
  million, for a net capital note receivable of $70.0 million as of December 31, 2011. These capital notes
  are subordinated to all shareholders, creditors, and any other such financial obligations.

  Per the terms of the capital notes, principal shall be the original value of the notes. Accrued interest on
  the notes is due and payable on a semi-annual basis, until the notes are paid in full. Interest on these
  notes have fixed and variable terms. There were no outstanding capital notes as of December 31, 2010.

  As of December 31, 2011, the accrued interest receivable for the capital notes totaled $150 thousand.

6. OTHER – RECEIVABLES FROM ASSET MANAGEMENT ESTATES

  As of December 31, 2011 and 2010, the receivable from AMEs was $932.0 million and $920.9 million,
  and the related allowance for loss was $817.3 million and $777.6 million, for a net receivable from
  AMEs of $114.7 million and $143.3 million, respectively.

                                                    For the Year Ended            For the Year Ended
                                                    December 31, 2011             December 31, 2010
     (Dollars in thousands)
     Gross Receivable from AME                      $             932,061         $             920,848
       Allowance for Loss beginning balance                       777,570                       516,414
       AME Receivable Bad Debt
         Expense (Reduction)                                        (6,730)                      (2,034)
       Increase in Allowance from Transfers                         80,955                      223,134
       Charges, Net                                                      -                       40,056
       Write-off of Cancelled Charters                             (34,474)                           -
       Allowance for Loss ending balance                          817,321                       777,570
     Receivable from AME, Net                       $             114,740         $             143,278



7. OTHER LIABILITIES – INSURANCE AND GUARANTEE PROGRAM LIABILITIES

  NCUA identifies credit unions experiencing financial difficulty through NCUA’s supervisory and
  examination process. On both a general and specific case basis, management determines the estimated
  losses from these supervised credit unions. NCUA also evaluates overall economic trends and monitors
  potential system-wide risk factors, such as increasing levels of consumer debt, bankruptcies, and
  delinquencies. NCUA applies the CAMEL rating system to assess an insured credit union’s financial
  condition and operations. The CAMEL rating system is a tool to measure risk and allocate resources
  for supervisory purposes. NCUA periodically reviews the CAMEL rating system to respond to
  continuing economic and regulatory changes in the credit union industry. For general reserve
  requirements, risk profile categories are established based on the CAMEL ratings of problem credit
  unions, and probable failure and loss rates are applied based on historical data. The anticipated losses

                                                        14
are net of estimated recoveries from the disposition of the assets of failed credit unions. The total
reserves for both identified and anticipated losses resulting from supervised credit union failures were
$606.6 million and $1.23 billion as of December 31, 2011 and 2010, respectively.

In exercising its supervisory function, the NCUSIF will occasionally extend guarantees of assets
(primarily loans) to third-party purchasers or existing credit unions in order to facilitate mergers. The
NCUSIF would be obligated upon borrower nonperformance. No such guarantees were outstanding
during 2011 and 2010, or as of December 31, 2011 and 2010.

In addition, the NCUSIF may grant a guaranteed line-of-credit to a third-party lender, such as a
corporate credit union or bank, if a particular credit union were to have a current or immediate liquidity
concern and the third-party lender refuses to extend credit without a guarantee. The NCUSIF would
thereby be obligated if the insured credit union failed to perform. Total line-of-credit guarantees of
credit unions as of December 31, 2011 and 2010 were approximately $115.0 million and $75.5 million,
respectively. The insured credit unions borrowed $15.4 million and zero, from the third-party lender,
under these line-of-credit guarantees as of December 31, 2011 and 2010, respectively. At December
31, 2011 and 2010, the NCUSIF reserved $2.1 million and $1.4 million, respectively, for these
guaranteed lines-of-credit. The guarantees expire in March 2012.

On rare occasions, the NCUSIF may provide indemnifications as part of a merger assistance or
purchase and assumption agreement to acquiring credit unions. Such indemnifications make the
NCUSIF contingently liable based on the outcome of any legal actions. There were no such
indemnification contingencies as of December 31, 2011 and 2010, respectively.

The activity in the Insurance and Guarantee Program Liabilities from supervised credit unions and
AMEs for the years ended December 31, 2011 and 2010 was as follows:

                                                     For the Year Ended        For the Year Ended
                                                     December 31, 2011         December 31, 2010
      (Dollars in thousands)

      Beginning balance                              $          1,225,281      $            715,846
      Reserve Expense (Reduction)                                (525,678)                  737,596
      Insurance losse claims paid                                (105,099)                 (277,801)
      Net Estimated Recovery/Claim on AMEs                         12,113                    49,640
      Ending balance                                 $            606,617      $          1,225,281

The Insurance and Guarantee Program Liabilities at December 31, 2011 and 2010, were comprised of
the following:
  •    Specific reserves were $16.4 million and $173.5 million, respectively. Specific reserves are
       identified for those credit unions where failure is imminent or where additional information is
       available that may affect the estimate of losses
  •    General reserves were $590.2 million and $1,051.8 million, respectively.

In addition to these recorded contingent liabilities, additional adverse performance in the financial
services industry could result in additional losses to the NCUSIF. The ultimate losses for insured credit
unions will largely depend upon future economic and market conditions, and accordingly, could differ
significantly from these estimates.




                                                   15
8. OTHER LIABILITIES – DISTRIBUTION PAYABLE

  Per Section 202(c)(3) of the FCU Act, Distributions from Fund Required, the NCUA Board shall effect
  a pro rata distribution to insured credit unions after each calendar year, if:
         (i)      any loans to the NCUSIF from the Federal Government, and any interest on those loans,
                  have been repaid;
         (ii)     the NCUSIF’s equity ratio exceeds the normal operating level of 1.3 percent; and
         (iii)    the NCUSIF’s available assets ratio exceeds 1.0 percent.

  The amount of share distribution should equal the maximum possible amount that does not reduce the
  NCUSIF’s equity ratio below the normal operating level of 1.3 percent, and does not reduce the
  NCUSIF’s available assets ratio below 1.0 percent.

  At the end of any calendar year in which the TCCUSF or the NCUSIF has an outstanding advance from
  the U.S. Treasury, the NCUSIF is prohibited from making the distribution to insured credit unions
  described in Section 202(c)(3) of the FCU Act. As of December 31, 2011, the TCCUSF had an
  outstanding advance from the U.S. Treasury. In lieu of the distribution described in that section, the
  NCUSIF shall make a distribution to the TCCUSF of the maximum amount possible that does not
  reduce the NCUSIF’s equity ratio below the normal operating level of 1.3 percent and does not reduce
  the NCUSIF’s available assets ratio below 1.0 percent.

  As of December 31, 2011, the NCUSIF recorded an estimate for the distribution payable due to the
  TCCUSF totaling approximately $278.6 million, thereby bringing the equity ratio down to its normal
  operating level of 1.3 percent. As of December 31, 2011, the NCUSIF’s available assets ratio was 1.32
  percent. The equity ratio and available assets ratio calculations are discussed in Note 12. The amount
  is expected to be paid in the first half of 2012, upon receipt of certification of certain insured share
  information from insured credit unions.

9. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

  Program costs and revenues are separated between intragovernmental and public to facilitate
  government-wide financial reporting. Intragovernmental revenue and expenses arise from transactions
  with other federal entities. Public revenue and expenses arise from transactions with domestic and
  foreign persons and organizations outside of the Federal Government.
   Intragovernmental Costs and Exchange            For the Year Ended               For the Year Ended
   Revenue                                         December 31, 2011                December 31, 2010

   (Dollars in thousands)

   Intragovernmental Costs                    $                   129,985       $                  162,410
   Public Costs (Reduction)                                      (530,035)                         738,982
       Total                                                     (400,050)                         901,392

   Intragovernmental Exchange
     Revenue                                                         (344)                             (397)
   Public Exchange Revenue                                           (693)                         (978,778)
       Total                                                       (1,037)                         (979,175)
   Net Cost/(Income)                           $                 (401,087)      $                   (77,783)

  Certain administrative services are provided to the NCUSIF by the NCUA Operating Fund. The
  NCUSIF is charged by the NCUA Operating Fund for these services based upon an annual allocation
  factor approved by the NCUA Board and derived from a study of actual usage. The allocation factor
  was 58.9 percent and 57.2 percent to the NCUSIF for 2011 and 2010, respectively. The cost of the


                                                    16
   services allocated to the NCUSIF, which totaled approximately $130.0 million and $113.6 million for
   2011 and 2010, respectively, is reflected as an expense in the Statements of Net Cost. These
   transactions are settled monthly. As of December 31, 2011 and 2010, amounts due to the NCUA
   Operating Fund for allocated administrative expenses were $1.2 million and $2.9 million, respectively.
   The following table provides a breakdown of the administrative services provided to the NCUSIF by
   the NCUA Operating Fund.
   Administrative Services Reimbursed to                   For the Year Ended               For the Year Ended
   the NCUA Operating Fund                                 December 31, 2011                December 31, 2010
   (Dollars in thousands)

   Employee Salaries                                   $                  73,271        $                      64,218
   Employee Benefits                                                      20,996                               17,931
   Employee Travel                                                        15,313                               12,912
   Contracted Services                                                     9,107                                8,294
   Administrative Costs                                                    8,518                                7,855
   Rent, Communications, and Utilities                                     2,780                                2,374

   Total Services Provided by the NCUA
     Operating Fund                                   $                  129,985        $                     113,584



10. AVAILABLE BORROWING AUTHORITY, END OF PERIOD

   The NCUSIF shares $6.0 billion in borrowing authority from the U.S. Treasury with the TCCUSF. As
   of December 31, 2011, the TCCUSF had $3.5 billion in borrowing outstanding from the U.S. Treasury.
   As a result, the NCUSIF had $2.5 billion in available borrowing authority shared with the TCCUSF.

   Under the FCU Act, the NCUSIF also has the ability to borrow from the CLF. The NCUSIF is
   authorized to borrow from the CLF up to the amount of the CLF’s unused borrowing authority. As of
   December 31, 2011 and 2010, the CLF had $10.0 billion and $35.0 billion available capacity to borrow
   under its current promissory notes, respectively, and such funds are available through March 31, 2012
   and 2011, respectively. The borrowing authority amounts are referenced to subscribed capital stock of
   the CLF. This continued level of borrowing authority is dependent on the outcome of several future
   events, including the decisions about the resolution of the U.S. Central Bridge Corporate Federal Credit
   Union (USC Bridge).

   At December 31, 2011 and 2010, the NCUSIF had $12.5 billion and $41.0 billion, respectively, in total
   available borrowing authority under promissory notes with the U.S Treasury and through the available
   CLF capacity.

11. DISCLOSURES RELATED TO THE STATEMENTS OF BUDGETARY RESOURCES

   The Statements of Budgetary Resources discloses total budgetary resources available to the NCUSIF,
   and the status of resources as of December 31, 2011 and 2010. Activity impacting budget totals of the
   overall Federal Government budget is recorded in the NCUSIF’s Statements of Budgetary Resources
   budgetary accounts. As of December 31, 2011 and 2010, the NCUSIF’s resources in budgetary
   accounts were $10.9 billion and $20.8 billion and undelivered orders were $362 thousand and $795
   thousand, respectively. All liabilities are covered by budgetary resources, excluding the Insurance and
   Guarantee Program Liabilities, because they are contingent liabilities and do not require budgetary
   resources until the liabilities are no longer contingent. All obligations incurred by the NCUSIF are
   reimbursable. The NCUSIF is exempt from OMB apportionment control.




                                                    17
   Budgetary resources listed on the NCUSIF’s statements and the budgetary resources found in the
   budget of the Federal Government differ because the NCUSIF’s statements are prepared as of
   December 31, calendar year, rather than as of September 30, the Federal Government’s fiscal year end.

12. CONTRIBUTED CAPITAL

   The Credit Union Membership Access Act of 1998 (CUMAA) mandated changes to the NCUSIF’s
   capitalization provisions effective January 1, 2000. Each insured credit union shall pay to and maintain
   with the NCUSIF a deposit in an amount equaling 1.0 percent of the credit union’s insured shares.
   Under Section 1782(c) of the FCU Act, the amount of each insured credit union’s deposit is adjusted as
   follows, in accordance with procedures determined by the NCUA Board, to reflect changes in the credit
   union’s insured shares: (i) annually, in the case of an insured credit union with total assets of not more
   than $50.0 million; and (ii) semi-annually, in the case of an insured credit union with total assets of
   $50.0 million or more. The annual and semi-annual adjustments are based on member share deposits
   outstanding as of December 31 of the preceding year and June 30 of the current year, respectively. The
   1.0 percent contribution is returned to the insured credit union in the event that its insurance coverage is
   terminated, or is obtained from another source, or the operations of the NCUSIF are transferred from
   the NCUA Board. As of December 31, 2011 and 2010, contributed capital owed to the NCUSIF totaled
   $30 thousand and $183 thousand respectively. As of December 31, 2011 and 2010, contributed capital
   due to insured credit unions was zero.

   Beginning in 2000, the CUMAA mandated that distributions to insured credit unions are determined
   from specific ratios, which are based upon year-end reports of insured shares. Accordingly,
   distributions associated with insured shares at year-end are declared and paid in the subsequent year.
   This was updated with the passage of the Helping Families Act of 2009 which states that at the end of
   any calendar year in which the TCCUSF has an outstanding advance from the U.S. Treasury, the
   NCUSIF is prohibited from making the distribution to insured credit unions as described above. In lieu
   of the distribution, the NCUSIF shall make a distribution to the TCCUSF for the maximum amount
   possible that does not reduce the NCUSIF’s equity ratio below the normal operating level of 1.3 percent
   and does not reduce the current available assets ratio below 1.0 percent.

   Pursuant to the FCU Act, the NCUSIF calculated and initiated a distribution to the TCCUSF in the
   estimated amount of $278.6 million, which is recognized as a payable as of December 31, 2011. Thus,
   the NCUSIF’s calculated equity ratio as of December 31, 2011 and 2010 was 1.30 percent and 1.28
   percent, based on an estimated total insured shares as of December 31, 2011 and actual insured shares
   as of December 31, 2010, of $795.3 billion and $757.9 billion, respectively. Total contributed capital
   as of December 31, 2011 and 2010 was $7.8 billion and $7.5 billion, respectively.

   The NCUSIF equity ratio is calculated as the ratio of contributed capital plus cumulative results of
   operations excluding net cumulative unrealized gains and losses on investments, to the aggregate
   amount of the insured shares in all insured credit unions.

   The calculated available assets ratio as of December 31, 2011 was 1.32 percent based on total estimated
   insured shares as of December 31, 2011 of $795.3 billion. The NCUSIF available assets ratio, as
   defined by the FCU Act, is calculated as the ratio of (A) the amount determined by subtracting (i) direct
   liabilities of the NCUSIF (including the distribution payable to the TCCUSF) and contingent liabilities
   for which no provision for losses has been made, from (ii) the sum of cash and the market value of
   unencumbered investments authorized under Section 203(c), to (B) the aggregate amount of the insured
   shares in all insured credit unions.




                                                      18
13. FIDUCIARY ACTIVITIES

    Fiduciary activities are the collection or receipt, management, protection, accounting, investment, and
    disposition by an AME of cash and other assets, in which non-federal individuals or entities have an
    ownership interest. Fiduciary assets are not assets of the Federal Government. Fiduciary activities are
    not recognized on the financial statements, but are reported on schedules in the notes to the financial
    statements in accordance with SFFAS No. 31, “Accounting for Fiduciary Activities.”

    The NCUA Board, as liquidating agent of the AMEs, disburses obligations owed by and collects money
    due to the liquidating credit unions through AMAC.

                                                                       For the Year Ended                 For the Year Ended
  Schedule of Fiduciary Activity                                       December 31, 2011                  December 31, 2010
  (Dollars in thousands)
  Fiduciary Net Liabilities, beginning of year                     $                (781,264)         $                (516,414)
  Revenues
   Interest on Loans                                                                      7,535                           8,545
   Other Fiduciary Revenues                                                               1,691                           1,835
  Expenses
   Professional & Outside Services Expenses                                               (7,501)                        (7,906)
   Compensation and Benefits                                                              (1,729)                        (2,989)
   Other Expenses                                                                            336                         (3,099)
  Net Change in Recovery Value of Assets and Liabilities
   Net Gain/(Loss) on Loans                                                           (25,144)                         (281,294)
    Net Gain/(Loss) on Real Estate Owned                                                    712                           3,574
    Other, Net Gain/(Loss)                                                            (52,705)                           16,484
  Decrease/(Increase) in Fiduciary Net Liabilities                                    (76,805)                         (264,850)
  Write off of Fiduciary Liabilities for
  Cancelled Charters                                                                    34,475                                 -
  Fiduciary Net Liabilities, end of year                           $               (823,594)          $               (781,264)



  Revenues consist of cash collected during the liquidation of assets held within the AME. Gains and
  losses include the revaluation of assets, as well as the disposition of assets and adjustments to liabilities,
  which contribute to the change in fiduciary net assets/liabilities.

  Schedule of Fiduciary Net Assets/Liabilities           As of December 31, 2011                    As of December 31, 2010
  (Dollars in thousands)

  Fiduciary Assets
    Loans                                            $                         96,755          $                        120,271
    Real Estate Owned                                                          31,687                                    36,798
    Other Fiduciary Assets                                                      7,954                                     7,720
  Total Fiduciary Assets                                                      136,396                                   164,789
  Fiduciary Liabilities
    Insured Shares                                                               8,595                                    2,510
     Secured Claims                                                              1,400                                        -
    Accrued Liquidation Expenses                                                 7,290                                    5,957
    Unsecured Claims                                                             7,793                                   12,851
    Uninsured Shares                                                             2,851                                    3,887
    Due to NCUSIF                                                              932,061                                  920,848
  Total Fiduciary Liabilities                                                  959,990                                  946,053
  Total Fiduciary Net Assets/(Liabilities)           $                        (823,594)        $                       (781,264)




                                                              19
14. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

  The Reconciliation of Net Cost of Operations to Budget explains the difference between the budgetary net
  obligations and the proprietary net cost of operations. As of December 31, 2011 and 2010, the
  Reconciliation of Net Cost of Operations to Budget consisted of the following:

  Reconciliation of Net Cost of Operations to Budget                         As of December 31, 2011            As of December 31, 2010
  (Dollars in thousands)

  Resources Used to Finance Activities:
  Budgetary Resources Obligated
  Budgetary Obligations Incurred                                         $                     413,154      $                   10,390,054
  Less: Spending Authority from Offsetting Collections and
   Change in Receivables from Federal Sources                                                 (714,809)                        (11,629,420)
  Net Obligations                                                                             (301,655)                         (1,239,366)

  Other Resources:
  Net Unrealized Gain/(Loss)                                                                  (263,813)                          (109,039)
  Total Resources Used to Finance Activities                                                  (565,468)                         (1,348,405)

  Resources Used to Fund Items Not Part of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods and
   Services Not Yet Received                                                                        432                            (32,531)
  Resources that Fund Expenses Recognized in Prior Periods                                      (2,136)                            (23,993)
  Change in Uncollected Customer Payments                                                             -                             (1,305)
  Change in Capital Deposit Receivable from Insured Credit Unions                                   153                             17,628
  Change in Contributed Capital                                                                320,559                             418,020
  Capital Deposits in Transit at Beginning of Year                                                    -                            (17,570)
  Resources that Finance the Acquisition of Assets                                                2,508                             (5,358)
  Change in Accounts Receivable from the Operating Fund                                           1,341                              1,341
  Change in Liability for Advances and Prepayments                                                    -                             (2,257)
  Change in Premium Receivable from Insured Credit Unions                                         1,963                             10,865
  Change in Receivables from Asset Management Estates                                            28,537                             61,161
  Capital Note Receivable                                                                      (70,000)                                  -
  Other Resources or Adjustments to Net Obligated Resources
   that do not Affect Net Cost of Operations                                                   413,986                             109,039
  Total Resources Used to Fund Items Not Part of the
   Net Cost of Operations                                                                      697,343                             535,040

  Resources Used to Finance the Net Cost of Operations                                         131,875                           (813,365)

  Components of Net Cost of Operations that will not
  Require or Generate Resources in the Current Period
   Provision for Insurance Losses
     Reserve Expense (Reduction)                                                              (525,678)                            737,596
     AME Receivable Bad Debt Expense (Reduction)                                                (6,730)                             (2,034)
   Increase in Exchange Revenue                                                                   (574)                                  -
  Components not Requiring or Generating Resources
  Depreciation Expense                                                                                 20                                 20
  Total Components of Net Cost of Operations That Do Not
   Require or Generate Resources During the Reporting Period                                  (532,962)                            735,582

  Net Cost/ (Income) from Operations                                     $                    (401,087)     $                      (77,783)




                                                                    20
15. SUBSEQUENT EVENTS

   Subsequent events have been evaluated from the Balance Sheet date through February 15, 2012, which
   is the date the financial statements were available to be issued. Management determined that there were
   no items to disclose as of December 31, 2011.

   REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)

   Risk Assumed Information

   Insurance and Guarantee Program Liabilities

   As of December 31, 2011, the aggregate outstanding insured shares of the insured credit unions were
   approximately $795.3 billion. This amount represents the maximum potential future guarantee
   payments that the NCUSIF could be required to make under the share insurance program, without
   consideration of any possible recoveries. Additionally, pursuant to Section 217 (b)(2)(A) of the FCU
   Act, to the extent that the required funding for the guarantee obligations exceeds the funds available in
   the TCCUSF, the NCUSIF will provide the necessary funds. These amounts bear no relationship to the
   NCUSIF's anticipated losses.

   As discussed previously herein, NCUA identifies credit unions at risk of failure through the supervisory
   and examination process, and estimates losses based upon economic trends and credit unions’ financial
   condition and operations. NCUA also evaluates overall economic trends and monitors potential credit
   union system-wide risk factors, such as increasing levels of consumer debt, bankruptcies, and
   delinquencies. NCUA applies the CAMEL rating system to assess a credit union’s financial condition
   and operations. The CAMEL rating system is a tool to measure risk and allocate resources for
   supervisory purposes. NCUA periodically reviews the CAMEL rating system to respond to continuing
   economic and regulatory changes in the credit union industry. The aggregate amount of reserves
   recognized for credit unions at risk of failure was $606.6 million and $1.23 billion as of December 31,
   2011 and 2010, respectively. At December 31, 2011 and 2010, the general reserves were $590.2 million
   and $1,051.8 million, respectively. At December 31, 2011 and 2010, the specific reserves resulting
   from supervised credit unions' failures were $16.4 million and $173.5 million, respectively.

   While certain risk factors remain elevated, as compared to pre-2009, the decrease in the NCUSIF's
   aggregate reserve of $618.7 million from 2010 to 2011 is partly attributable to certain improving
   metrics, specifically a declining trend in the number of credit union failures, resolution of certain
   troubled credit unions, a reduction in assets in credit unions with the highest risk ratings, and lower
   delinquencies and charge-offs. The trend in 2011 contrasts with the trend in 2010 when the NCUSIF's
   aggregate reserve increased by $466.5 million due to the slow pace of economic recovery and concerns
   with real estate values, a negative trend in credit union CAMEL codes, the potential for a larger number
   of failures, and concern with the cost of failures.

   Fees and Premiums

   During 2011, the NCUA Board did not assess premiums to insured credit unions from the NCUSIF.
   During 2010, the NCUA Board assessed a premium of $930.0 million on the insured credit unions for
   the NCUSIF to restore its equity ratio to the normal operating level of 1.3 percent.

   Sensitivity, Risks and Uncertainties of the Assumptions

   As discussed previously herein, the NCUA estimates the anticipated losses resulting from insured credit
   union failures using an internal model that applies failure and loss rates based on historical data to
   troubled credit unions identified through the CAMEL rating system under various scenarios. Historical

                                                     21
trends are not indicative of future performance. Actual losses could differ materially from the
anticipated losses recorded by the NCUSIF as of December 31, 2011.

The development of assumptions for key input variables of our estimation model is a highly subjective
process that involves significant judgment and will change over time. Future values are difficult to
estimate, especially over longer timeframes. Key assumptions in the modeling include failure and loss
rates. The failure rate is developed based on actual failures and historical migration trends in the
CAMEL ratings, and incorporates the NCUA's expectations and assumptions about macroeconomic
trends such as unemployment rate and level of consumer debt, as well as credit union system-wide
factors such as delinquencies, bankruptcies and charge-offs. The loss rate is developed based on
historical loss experience from actual failures, and incorporates the NCUA's expectations and
assumptions about anticipated recoveries. The assumptions developed for the estimation model are
periodically evaluated by the NCUA to determine the reasonableness of those assumptions over time.

The NCUSIF general reserve is sensitive to assumptions made about the failure and loss rates under
various scenarios in the Monte Carlo simulation. Changing our assumptions for observed variations in
failure rates and loss rates results in a wide range of losses, as compared to $590.2 million in
anticipated losses recognized on the NCUSIF's balance sheet at December 31, 2011. The assumptions
used to estimate the anticipated losses will require continued calibration and refinement.

Liquidity Risk and Capital Resources

As discussed previously herein, the NCUSIF has multiple sources of funding including (1) deposits
contributed by the insured credit unions, as provided by the FCU Act, (2) cumulative earnings retained
by the NCUSIF, (3) premium assessments on the insured credit unions, as necessary, as provided by the
FCU Act, (4) borrowings from the U.S. Treasury, and (5) borrowings from the CLF. The NCUSIF's
status as a revolving fund in the U.S. Treasury ensures access to sufficient funds in meeting the
NCUSIF’s obligation under the Insurance and Guarantee Program for the insured credit unions.

Contributed Capital
Each insured credit union is required to deposit and maintain in the NCUSIF 1.0 percent of its insured
shares. At December 31, 2011, the NCUSIF had total contributed capital from insured credit unions of
$7.8 billion based on the total insured shares of $782.5 billion as of June 30, 2011.

At December 31, 2011, the total insured shares were estimated to be approximately $795.3 billion,
subject to reporting of the insured share amounts by the insured credit unions to NCUA. We expect
that the NCUSIF will receive additional deposits of approximately $147.1 million from the insured
credit unions in early 2012, pursuant to the FCU Act.

Cumulative Earnings and Distribution Payable to the TCCUSF
In addition to the contributed capital, the NCUSIF has retained approximately $3.0 billion in
cumulative earnings, primarily from earnings on its U.S. Treasury securities investments, at
December 31, 2011.

As discussed previously herein, as the result of the NCUSIF’s equity ratio being greater than its normal
operating level of 1.30 percent and available assets ratio being greater than 1.0 percent, the NCUSIF
recorded a distribution payable to the TCCUSF as of December 31, 2011. The NCUSIF’s distribution
was estimated at $278.6 million based on the best information available as of December 31, 2011. The
amount is expected to be paid in the first half of 2012, upon receipt of certification of certain insured
share information from insured credit unions.




                                                  22
The information used to develop the distribution amount included the total estimated insured shares of
$795.3 billion at December 31, 2011. However, the corresponding estimated increase in contributed
capital of approximately $147.1 million was not included in deriving the distribution amount due to the
TCCUSF necessary to bring the equity ratio to 1.3 percent, as mandated by the FCU Act. Additional
deposits from the insured credit unions may result in the NCUSIF's equity ratio exceeding the normal
operating level of 1.3 percent in early 2012. This could lead to additional distribution from the
NCUSIF to the TCCUSF in early 2012.

Premium Assessments
As previously discussed herein, the NCUA Board may also assess premiums to all insured credit
unions, as provided by the FCU Act. During the year ended December 31, 2011, the NCUA Board did
not assess any premiums on the insured credit unions for the NCUSIF.

Borrowing Authority from the U.S. Treasury
As previously discussed herein, the NCUSIF has $6.0 billion in borrowing authority, shared with the
TCCUSF, from the U.S. Treasury. On July 27, 2011, the TCCUSF borrowed $3.5 billion from the U.S.
Treasury. At December 31, 2011, the NCUSIF, together with the TCCUSF, had $2.5 billion in
additional borrowing authority available from the U.S. Treasury. The TCCUSF was established in
2009 to accrue the losses of the corporate credit union system and, over time, assess the insured credit
union system for such losses. The estimated losses and liquidity needs of the TCCUSF are based on the
NCUA's expectations and assumptions about the resolution of failed corporate credit unions, including
the disposition and recovery value of their assets. Actual losses of the TCCUSF, including the
TCCUSF's funding needs could differ from those estimates, and consequently, the NCUSIF may not
have any available borrowing authority from the U.S. Treasury.

Borrowing Authority from the CLF
As previously discussed herein, the NCUSIF also has the ability to borrow from the CLF as provided in
the FCU Act. At December 31, 2011, the NCUSIF did not have any outstanding borrowing from the
CLF.

The CLF is authorized by statute to borrow, from any source, an amount not to exceed twelve times its
subscribed capital stock and surplus. The CLF borrows exclusively from FFB. As of December 31,
2011, the CLF had borrowing capacity under its note purchase agreement with the FFB of $10.0 billion,
and such funds are available through March 2012.

At December 31, 2011, approximately $2.0 billion of the CLF's capital stock is held by USC Bridge on
behalf of its member corporate credit unions. The NCUA Board formed USC Bridge and three other
bridge corporate credit unions as chartered private enterprises to purchase selected assets, including
CLF capital stock held by U.S. Central Federal Credit Union, and assume liabilities and member shares
of the liquidated corporate credit unions in order to provide uninterrupted services to the natural person
credit unions that were members of the now failed corporate credit unions.

As a part of the Corporate System Resolution Plan, the NCUA Board had been actively pursuing a
credit union system-led resolution to the Bridge Corporates to facilitate a number of transitions,
including the CLF agent-member structure. As of December 31, 2011, neither USC’s members nor
NCUA was able to secure the transition of USC’s products and services to a successor entity, thereby
leading to the agency’s decision to wind-down USC’s operations in 2012. Accordingly, it is likely that
USC Bridge would discontinue its role as the agent group representative for CLF and thereby redeem
its capital stock by providing a formal notice to redeem its shares as provided for under the Act. In
such an event, during the withdrawal period and subsequent thereto, redemption by CLF of its capital
stock from USC Bridge would materially reduce members’ equity and, as a result, the borrowing
capacity of CLF, and consequently the NCUSIF’s available borrowing authority from the CLF.



                                                  23
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, National Credit Union Administration and
The Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Share Insurance Fund (NCUSIF) as of
December 31, 2011 and 2010 and the related statements of net cost and changes in net position, and
statement of budgetary resources (hereinafter referred to as “the financial statements”) for the years then
ended, and have issued our report thereon dated February 15, 2012.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.
The management of the NCUSIF is responsible for establishing and maintaining effective internal control.
In planning and performing our fiscal year 2011 audit, we considered the NCUSIF’s internal control over
financial reporting by obtaining an understanding of the NCUSIF’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the NCUSIF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
NCUSIF’s internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.
Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.
This report is intended solely for the information and use of the addressees, NCUSIF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.



February 15, 2012


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                    Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
The Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Share Insurance Fund (NCUSIF) as of
December 31, 2011 and 2010, and the related statements of net cost and changes in net position, and
statement of budgetary resources (hereinafter referred to as “financial statements”) for the years then
ended, and have issued our report thereon dated February 15, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the NCUSIF is responsible for complying with laws, regulations, and contracts
applicable to the NCUSIF. As part of obtaining reasonable assurance about whether the NCUSIF’s
financial statements are free of material misstatement, we performed tests of the NCUSIF’s compliance
with certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct
and material effect on the determination of the financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to the NCUSIF. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, NCUSIF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




February 15, 2012




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
National Credit Union
Administration Central
Liquidity Facility
Financial Statements as of and for the Years Ended
December 31, 2011 and 2010, and
Independent Auditors’ Reports
             NATIONAL CREDIT UNION ADMINISTRATION
                  CENTRAL LIQUIDITY FACILITY
              As of and For the Years Ended December 31, 2011 and 2010




TABLE OF CONTENTS


                                                                         Page



 INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS                      3

 FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2011 AND 2010:

    Balance Sheets                                                         4

    Statements of Operations                                               5

    Statements of Members’ Equity                                          6

    Statements of Cash Flows                                                7

    Notes to Financial Statements                                        8-17

 INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
   FINANCIAL REPORTING                                                     18

 INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER
   MATTERS                                                                 19




                                        -2-
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                         Independent Auditors’ Report on Financial Reporting


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Central
Liquidity Facility (CLF) as of December 31, 2011 and 2010, and the related statements of operations,
members’ equity, and cash flows (hereinafter referred to as “financial statements”) for the years then
ended. These financial statements are the responsibility of the CLF’s management. Our responsibility is to
express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the CLF’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Administration Central Liquidity Facility as of
December 31, 2011 and 2010, and its operations, members’ equity, and cash flows for the years then ended
in conformity with U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated February 13,
2012, on our consideration of the CLF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




February 13, 2012




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
            NATIONAL CREDIT UNION ADMINISTRATION
                 CENTRAL LIQUIDITY FACILITY
                           As of December 31, 2011 and 2010
                             (Dollars in thousands, except share data)

BALANCE SHEETS

                                                           2011                2010
ASSETS

Cash and cash equivalents (notes 4 and 7)            $        1,989,641    $           1,905
Accounts receivable (notes 5 and 7)                               1,000                    -
Investments held to maturity
   (Net of $622 and $4,306 unamortized
   premium, fair value of $109,957 and
   $1,982,533 as of 2011 and 2010,
   respectively) (notes 6 and 7)                                108,872          1,977,556
Accrued interest receivable (note 7)                                145                500

TOTAL                                                $        2,099,658    $     1,979,961



LIABILITIES AND MEMBERS’ EQUITY

LIABILITIES:
 Accounts payable (note 7)                           $               219   $             239
 Other liabilities (notes 7 and 8)                                12,310                   -
 Dividends payable (note 7)                                          366               1,479
 Member deposits (notes 7 and 10)                                    322                 329

     Total Liabilities                                            13,217               2,047

MEMBERS’ EQUITY
 Capital stock – required ($50 per share par
 value authorized: 82,403,220 and 78,236,318
 shares; issued and outstanding: 41,201,610
 and 39,118,159 shares as of 2011 and 2010,
                                                              2,060,081          1,955,908
 respectively) (notes 8 and 9)
 Retained earnings                                                26,360              22,006


     Total members’ equity                                    2,086,441          1,977,914

TOTAL                                                $        2,099,658    $     1,979,961

See accompanying notes to financial statements.




                                               -4-
                      NATIONAL CREDIT UNION ADMINISTRATION
                           CENTRAL LIQUIDITY FACILITY
                          For the Years Ended December 31, 2011 and 2010
                                             (Dollars in thousands)




STATEMENTS OF OPERATIONS


                                                                      2011               2010


REVENUE:
 Investment income                                            $              8,101   $          14,135
 Interest on loans                                                               -              45,610

      Total revenue                                                          8,101              59,745

EXPENSES: (note 13)
 Personnel services                                                           437                 344
 Personnel benefits                                                           111                  83
 Other general and administrative expenses                                     89                  56

      Total operating expenses                                                637                 483

 Interest – Federal Financing Bank notes payable (note 12)                       -              45,610
 Interest – liquidity reserve                                                   1                   2

      Total expenses                                                          638               46,095

NET INCOME                                                    $              7,463   $          13,650



See accompanying notes to financial statements.




                                                     -5-
                NATIONAL CREDIT UNION ADMINISTRATION
                     CENTRAL LIQUIDITY FACILITY
                        For the Years Ended December 31, 2011 and 2010
                                  (Dollars in thousands, except share data)




STATEMENTS OF MEMBERS’ EQUITY


                                                        Capital Stock
                                                                                    Retained
                                              S hares               Amount          Earnings          Total


BALANCE – December 31, 2009                   36,374,558        $       1,818,728   $   14,124    $    1,832,852


 Issuance of required capital stock               2,784,248              139,212                        139,212

 Redemption of required capital stock
   (note 8)                                        (40,647)               (2,032)                        (2,032)

 Dividends declared ($0.15/share) (notes
                                                                                        (5,768)          (5,768)
  9 and 10)


 Net income                                                                             13,650           13,650


BALANCE – December 31, 2010                   39,118,159                1,955,908       22,006         1,977,914


 Issuance of required capital stock               2,378,097              118,905                        118,905

 Redemption of required capital stock
   (note 8)                                       (294,646)              (14,732)                       (14,732)

 Dividends declared ($0.08/share) (notes
                                                                                        (3,109)          (3,109)
   9 and 10)


 Net income                                                                              7,463            7,463

BALANCE – December 31, 2011                   41,201,610        $       2,060,081   $   26,360    $    2,086,441



See accompanying notes to financial statements.




                                                      -6-
                      NATIONAL CREDIT UNION ADMINISTRATION
                           CENTRAL LIQUIDITY FACILITY
                             For the Years Ended December 31, 2011 and 2010
                                                   (Dollars in thousands)



STATEMENTS OF CASH FLOWS
                                                                                2011                2010

CASH FLOWS FROM OPERATING ACTIVITIES:
 Net income                                                                 $           7,463   $          13,650
 Adjustments to reconcile net income
  to net cash provided by operating activities:
    Amortization of premiums                                                            4,927            (1,840)
    Decrease in accrued interest receivable                                               355             23,091
    Decrease in accounts payable                                                         (20)           (23,492)
    Increase in other liabilities                                                         272                  -

       Net cash provided by operating activities                                       12,997              11,409

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments                                                        (1,685,858)          (1,220,885)
 Proceeds from maturing investments                                               3,548,615            1,074,000
 Loan principal repayments/(disbursements) - net                                          -          18,312,751

       Net cash provided by investing activities                                 1,862,757           18,165,866



CASH FLOWS FROM FINANCING ACTIVITIES:
 Issuance of required capital stock                                                118,905               139,212
 Dividends paid (notes 9 and 10)                                                    (4,222)               (5,664)
 Redemption of required capital stock                                               (2,694)               (2,032)
 Withdrawal of member deposits                                                      (1,114)                 (901)
 Additions to member deposits                                                         1,107                   866
 (Repayments of)/proceeds from FFB borrowings - net                                       -         (18,312,751)

       Net cash provided by/(used in) financing activities                         111,982          (18,181,270)

NET INCREASE/(DECREASE) IN CASH AND CASH
                                                                                 1,987,736                 (3,995)
EQUIVALENTS

CASH AND CASH EQUIVALENTS– beginning of year                                            1,905               5,900

CASH AND CASH EQUIVALENTS – end of year                                     $    1,989,641      $           1,905

SUPPLEMENTAL DISCLOSURE OF CASH FLOW
 INFORMATION – cash paid during the year for interest                       $               -   $          69,173

See accompanying notes to financial statements.



                                                           -7-
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                           Notes to Financial Statements
                     As of and for the Years Ended December 31, 2011 and 2010
                                   (Dollars in thousands, except share data)

1. ORGANIZATION AND PURPOSE

The National Credit Union Administration (NCUA) Central Liquidity Facility (CLF) was created by
the National Credit Union Central Liquidity Facility Act (the “Act”). CLF is designated as a
mixed-ownership Government corporation under the Government Corporation Control Act. CLF
exists within NCUA and is managed by the NCUA Board. CLF became operational on October 1,
1979.

CLF was created to improve the general financial stability of credit unions by serving as a liquidity
lender to credit unions experiencing unusual or unexpected liquidity shortfalls. CLF accomplishes
its purpose by lending funds, subject to certain statutory limitations, when a liquidity need arises.

CLF is subject to various Federal laws and regulations. CLF’s operating budget requires
Congressional approval, and CLF may not make loans to members for the purpose of expanding
credit union loan portfolios. CLF’s investments are restricted to obligations of the U.S. Government
and its agencies, deposits in federally insured financial institutions, and shares and deposits in credit
unions. Borrowing is limited by statute to 12 times the subscribed capital stock and surplus. See
Notes 9 and 12 for further information about the capital stock and the CLF's borrowing authority.

2. SIGNIFICANT ACCOUNTING POLICIES

(a)     Basis of Presentation – CLF has historically prepared its financial statements in accordance
with accounting principles generally accepted in the United States of America (GAAP), based on
standards issued by the Financial Accounting Standards Board (FASB), the private-sector
standards-setting body. The Federal Accounting Standards Advisory Board (FASAB) is the
standards-setting body for the establishment of GAAP with respect to the financial statements of
Federal Government entities. FASAB has indicated that financial statements prepared based upon
standards promulgated by FASB may also be regarded as in accordance with GAAP for those
Federal entities, such as CLF, that have issued financial statements based upon FASB standards in
the past.

(b)    Basis of Accounting – CLF maintains its accounting records on the accrual basis of
accounting. CLF recognizes interest income on loans and investments when they are earned, and
recognizes interest expense on borrowings when it is incurred. CLF recognizes expenses when
incurred. CLF accrues and records dividends on capital stock monthly and pays dividends quarterly.

(c)       Use of Estimates – The preparation of financial statements in conformity with GAAP
requires management to make estimates and assumptions that affect the reported amounts of assets,
liabilities, and disclosures of contingent assets and liabilities at the date of the financial statements,
and the reported amounts of revenues and expenses during the reporting period. Actual results could
differ from management’s estimates.

(d)     Cash and Cash Equivalents – CLF considers all highly liquid investments with a maturity
of three months or less when purchased to be cash equivalents.


                                                     -8-
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                           Notes to Financial Statements
                     As of and for the Years Ended December 31, 2011 and 2010
                                  (Dollars in thousands, except share data)

(e)      Investments – By statute, CLF investments are restricted to obligations of the U.S.
Government and its agencies, deposits in federally insured financial institutions, and shares and
deposits in credit unions. All investments are classified as held-to-maturity under FASB Accounting
Standards Codification (ASC) topic 320-10-25-1, Classification of Investment Securities, as CLF has
the intent and ability to hold these investments until maturity. Accordingly, CLF reports investments
at amortized cost. Amortized cost is the face value of the securities plus the unamortized premium
or less the unamortized discount.

Premiums and discounts are amortized or accreted over the life of the related held-to-maturity
investment as an adjustment to yield using the effective interest method. Such amortization and
accretion is included in the “investment income” line item in the Statement of Operations.

CLF records investment transactions when they are made.

(f)     Loans and Allowance for Loan Losses – Loans, when made to members, are on a
short-term or long-term basis. Loans are recorded at the amount disbursed and bear interest at the
higher of the Federal Financing Bank Advance Rate or the Federal Reserve Bank Discount Window
Primary Credit Rate. By regulation, Member Liquidity Needs Loans are made on a fully secured
basis. CLF obtains a security interest in the assets of the member equal to at least 110 percent of all
amounts due. CLF does not currently charge additional fees for its lending activities.

CLF has form documents in place that reflect the repayment, security, and credit reporting terms
applicable to all CLF loans. CLF makes loan disbursements through the corporate credit union
network and relies on members of the corporate network to service loans it has made. CLF currently
relies on the U.S. Central Bridge Corporate Federal Credit Union (USC Bridge) (in conservatorship)
as its agent group representative and master servicer for all loans. USC Bridge relies on the
appropriate corporate credit union as its agent to service loans owed by its natural person credit
union members. See Note 9 for further information about USC Bridge. CLF requires each corporate
credit union acting as a loan servicer to subordinate any claims it might have in the collateral owned
by natural person credit unions that may have been pledged to secure an advance from the corporate
credit union.

CLF management reviews the allowance for loan losses annually. In determining the allowance for
loan losses, when applicable, CLF evaluates the collectability of its loans to members through
examining the financial condition of the individual borrowing credit unions and the credit union
industry in general.

A loan is considered impaired if it is probable that CLF will not collect all principal and interest
actually due. The impairment is measured based on the present value of expected future cash flows
discounted at the loan’s effective interest rate. CLF does not accrue interest when a loan is
considered impaired. When ultimate collectability of the principal balance of the impaired loan is in
doubt, all cash receipts on the impaired loan are applied to reduce the principal of such loan until the




                                                    -9-
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                           Notes to Financial Statements
                     As of and for the Years Ended December 31, 2011 and 2010
                                   (Dollars in thousands, except share data)

principal has been recovered, and are recognized as interest income thereafter. Impairment losses
are charged against the allowance, and increases in the allowance are charged as bad debt expense.

Loans are written off against the allowance when all possible means of collection have been
exhausted and the potential for recovery is considered remote. There was no allowance and no past
due loans as of December 31, 2011 and 2010, and there were no write-offs for fiscal years (FY) 2011
and 2010. CLF management considers write-offs remote because all member loans must be
collateralized by assets with a minimum of 110 percent of the outstanding loan amount.

CLF recognizes loans when they are issued and related repayments when they are received.

(g)     Borrowings – CLF’s borrowings are recorded when they are received, do not hold premiums
or discounts, and are carried at cost. Repayments are recorded when they are made.

(h)     Tax-Exempt Status – CLF is exempt from Federal income taxes under Section 501(c)(1) of
the Internal Revenue Code.

(i)   Reclassifications – Certain amounts in the financial statements have been reclassified to
conform to the current year presentation.

(j)      Commitments and Contingencies – Liabilities for loss contingencies arising from claims,
assessments, litigation, fines, and penalties and other sources are recorded when it is probable that a
liability has been incurred and the amount can be reasonably estimated. Legal costs incurred in
connection with loss contingencies are expensed as incurred.

(k)    Related Parties – CLF exists within NCUA and is managed by the NCUA Board. NCUA
Operating Fund (OF) provides CLF with information technology, support services, and supplies. In
addition, NCUA OF pays CLF’s employees’ salaries and benefits, as well as CLF’s portion of
monthly building operating costs. The allocation formula to calculate these expenses is based on the
number of full-time employees of the respective entities and the estimated amount of time CLF
employees spend performing CLF functions.

3. NEWLY IMPLEMENTED ACCOUNTING STANDARDS

In 2011, CLF adopted Accounting Standards Update (ASU) 2010-06, Improving Disclosures about
Fair Value Measurements, providing amendments to ASC Topic 820, Fair Value Measurements and
Disclosures. These amendments require new disclosures pertaining to activity in Level 3 fair value
measurements. This adoption did not have a material impact on its balance sheets or statements of
operation.

In 2011, CLF adopted FASB issued ASU 2010-20, Disclosures about the Credit Quality of
Financing Receivables and the Allowance for Credit Losses, providing amendments to ASC Topic
310, Receivables. The objective of these amendments is for an entity to provide disclosures that
facilitate financial statement user’s evaluation of the following: 1) the nature of credit risk inherent


                                                    - 10 -
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                           Notes to Financial Statements
                     As of and for the Years Ended December 31, 2011 and 2010
                                  (Dollars in thousands, except share data)

in the entity’s portfolio of financing receivable, 2) how that risk is analyzed and assessed in arriving
at the allowance for credit losses, and 3) the changes and reasons for those changes in the allowance
for credit losses. The existing disclosures are amended to require disclosures about an entity’s
financing receivables on a disaggregated basis. The amendments also require additional disclosures
about financing receivables. This adoption did not have a material impact on its balance sheets or
statements of operation.

In 2011, CLF adopted the ASU 2011-04, Amendments to Achieve Common Fair Value Measurement
and Disclosure Requirements in GAAP and International Financial Reporting Standards, to the
accounting standards on Fair Value Measurements and Disclosures (FASB ASC Topic 820). The
amendment requires common fair value measurement and disclosure in GAAP and International
Financial Reporting Standards. Consequently, the amendments change the wording used to describe
many of the requirements in GAAP for measuring fair value and disclosing information about fair
value measurements. ASU 2011-04 will be effective for the Fund’s financial statements as of and
for the year ended December 31, 2012. This adoption will not have a material impact on its balance
sheets or statements of operation.

4. CASH AND CASH EQUIVALENTS

CLF’s cash and cash equivalents consisted of the following:

                                                 As of                 As of
                                             December 31,          December 31,
                                                 2011                  2010

     U.S. Treasury Securities                 $   1,988,905         $         1,778
     USC Bridge Daily Transaction Share
     Account                                                447                110
     PNC Bank                                               289                 17

           Total                              $   1,989,641         $         1,905


The USC Bridge Daily Transaction Share Account is a variable rate share account used primarily for
CLF clearing transactions. The account is available only to CLF. U.S. Treasury securities had an
initial term of less than three months when purchased.

5. ACCOUNTS RECEIVABLE

At December 31, 2011, CLF recognized $1,000 in accounts receivable for the pending receipt of a
matured U.S. Treasury Note. The security matured on December 31, 2011 and was removed from
investments, but proceeds were not received until January 2012. The allowance for doubtful
accounts related to this receivable was zero because U.S. Treasury securities are deemed to be fully
collectible.


                                                   - 11 -
                      NATIONAL CREDIT UNION ADMINISTRATION
                           CENTRAL LIQUIDITY FACILITY
                             Notes to Financial Statements
                       As of and for the Years Ended December 31, 2011 and 2010
                                       (Dollars in thousands, except share data)

6. INVESTMENTS

The carrying amount, gross unrealized holding gains, gross unrealized losses, and the fair value of
held-to-maturity debt securities as of December 31, 2011 and 2010 were as follows:
                                                                                     Gross
                                                                      Gross        Unrealized
                                                  Carrying         Unrealized       Holding
                                                  Amount          Holding Gains     Losses        Fair Value
  As of December 31, 2011
  U.S. Treasury Securities:                   $      108,872               1,085          -          109,957


  As of December 31, 2010
  U.S. Treasury Securities:                   $    1,977,556               4,977          -         1,982,533


Maturities of debt securities classified as held-to-maturity were as follows:

                                                   As of December, 31 2011          As of December 31, 2010
                                                     Net                             Net
                                                   Carrying      Aggregate         Carrying       Aggregate
                                                   Amount        Fair Value        Amount         Fair Value
         Due in one year or less                     $98,849          $ 99,050     $ 1,868,391    $ 1,873,003
         Due after one year through five years         5,009             5,286         104,183        104,416
         Due after five years through ten years        5,014             5,621           4,982          5,114
               Total                                $108,872         $109,957      $ 1,977,556    $ 1,982,533



7. FAIR VALUE MEASUREMENTS

FASB ASC 820-10-05, Fair Value Measurements, defines fair value, establishes a consistent
framework for measuring fair value, and expands disclosure requirements for fair value
measurements. The standard establishes a fair value hierarchy that prioritizes the inputs to valuation
techniques used to measure fair value. The hierarchy gives the highest priority to unadjusted quoted
prices in active markets for identical assets or liabilities (level 1 measurements) and the lowest
priority to measurements involving significant unobservable inputs (level 3 measurements). The
three levels of the fair value hierarchy are as follows:

    •   Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or
        liabilities that CLF has the ability to access at the measurement date
    •   Level 2 inputs are inputs other than quoted prices included within Level 1 that are observable
        for the asset or liability, either directly or indirectly
    •   Level 3 inputs are unobservable inputs for the asset or liability.



                                                        - 12 -
                    NATIONAL CREDIT UNION ADMINISTRATION
                         CENTRAL LIQUIDITY FACILITY
                           Notes to Financial Statements
                     As of and for the Years Ended December 31, 2011 and 2010
                                     (Dollars in thousands, except share data)


The following table presents the carrying amounts and established fair values of CLF’s financial
instruments as of December 31, 2011 and 2010. The fair value of an instrument is the amount that
would be received to sell an asset or would be paid to transfer a liability in an orderly transaction
between market participants by the measurement date.

Cash and cash equivalents – The carrying amounts for cash and cash equivalents approximate fair
value.

Accounts receivable – The carrying amount for accounts receivable approximates fair value because
it represents pending proceeds from a maturing U.S. Treasury security.

Investments held-to-maturity – CLF’s investments held-to-maturity are all comprised of U.S.
Treasury Securities, for which a share price can be readily obtained. The fair value for investments
is determined using the quoted market prices at the reporting date (observable inputs).

Member Deposits – Funds maintained with CLF in excess of required capital amounts are recorded
as member deposits. These deposits are due upon demand; therefore, carrying amounts approximate
the fair value.

Other – Accrued interest receivable, accounts payable, other liabilities, and dividends payable are
recorded at book values, which approximate the respective fair values because of the short maturity
of these instruments.

The carrying values and approximate fair values of financial instruments are as follows:

                                           As of December 31,                     As of December 31,
                                                  2011                                   2010
                                          Carrying     Fair                      Carrying     Fair
                Financial Instruments      Value       Value                      Value       Value

            Cash and cash equivalents     $1,989,641    $1,989,641               $   1,905   $   1,905
            Accounts receivable                1,000         1,000                       -           -
            Investments held to
              maturity                       108,872        109,957              1,977,556   1,982,533
            Accrued interest receivable          145            145                    500         500
            Accounts payable                     219            219                    239         239
            Other liabilities                 12,310         12,310                      -           -
            Dividends payable                    366            366                  1,479       1,479
            Member deposits                      322            322                    329         329




                                                       - 13 -
                   NATIONAL CREDIT UNION ADMINISTRATION
                        CENTRAL LIQUIDITY FACILITY
                          Notes to Financial Statements
                    As of and for the Years Ended December 31, 2011 and 2010
                                  (Dollars in thousands, except share data)

8. OTHER LIABILITIES

Other liabilities include pending redemptions of capital stock and advance deposits from a future
member credit union. CLF reclassified $12,038 of capital stock to other liabilities in 2011 to reflect
the pending redemption of 240,753 shares of required capital stock at the request of a regular (non-
agent) member credit union. Capital stock is redeemable upon demand by members, subject to
certain conditions as set out in the Act and NCUA regulations. The redemption will occur in 2012.
Dividends are paid on these shares until they are redeemed. As of December 31, 2011, other
liabilities also include $272 in advance deposits from a credit union that will become a member in
2012. As of December 31, 2010, there were no pending redemptions or advance deposits.

9. CAPITAL STOCK

Membership in CLF is voluntary and is open to all credit unions that purchase a prescribed amount
of capital stock. CLF capital stock is non-voting and shares have a par value of $50. There are two
types of membership—regular (natural person credit unions) and agent (through corporate credit
unions). Natural person credit unions may borrow from CLF directly as a regular member or
indirectly through an agent member.

The capital stock account represents subscriptions remitted to CLF by member credit unions.
Regular members’ required subscription amounts equal one-half of one percent of their paid-in and
unimpaired capital and surplus, one-half of which is required to be remitted to CLF. Agent
members’ required subscription amounts equal one-half of one percent of the paid-in and unimpaired
capital and surplus of all of the natural person credit unions served by the agent member, one-half of
which is required to be remitted to CLF. In both cases, member credit unions are required to hold
the remaining one-half in assets subject to call by the NCUA Board. These unremitted subscriptions
are not reflected in CLF’s financial statements. Subscriptions are adjusted annually to reflect
changes in the member credit unions’ paid-in and unimpaired capital and surplus. Dividends are
non-cumulative, and are declared and paid on required capital stock.

In FY1984, CLF accepted an agent membership request from U.S. Central Federal Credit Union
(USC) on behalf of its corporate credit union members. CLF appointed USC as the agent group
representative and master servicer for all loans extended by CLF. USC relied on the appropriate
corporate credit union as its agent to service loans owed by its natural person credit union members.

A member of CLF whose capital stock account constitutes less than five percent of the total capital
stock outstanding may withdraw from membership in CLF six months after notifying the NCUA
Board of its intention. A member whose capital stock account constitutes five percent or more of the
total capital stock outstanding may withdraw from membership in CLF two years after notifying the
NCUA Board of its intention. As of December 31, 2011, CLF had one member withdrawal request
pending totaling $12,038. As of December 31, 2010, CLF had no member withdrawal requests
pending.




                                                   - 14 -
                   NATIONAL CREDIT UNION ADMINISTRATION
                        CENTRAL LIQUIDITY FACILITY
                          Notes to Financial Statements
                    As of and for the Years Ended December 31, 2011 and 2010
                                  (Dollars in thousands, except share data)

The required capital stock is redeemable upon demand by the members, subject to certain conditions
as set out in the Act and NCUA regulations; however, the stock is not deemed “mandatorily
redeemable” as defined in FASB ASC 480-10-25-7, Mandatorily Redeemable Financial
Instruments; therefore capital stock is classified in permanent equity.

On September 24, 2010, the NCUA Board announced the Corporate System Resolution Program
(CSRP). The CSRP is a multi-stage plan for stabilizing the corporate credit union system, providing
short-term and long-term funding to resolve a portfolio of securities held by the failed corporate
credit unions, and establishing a new regulatory framework for corporate credit unions.

As a part of the CSRP, the NCUA Board liquidated five corporate credit unions, including USC on
October 1, 2010, and placed them in the Asset Management Estate (AME) status.

To facilitate the resolution process, the NCUA Board chartered four bridge corporate credit unions
(Bridge Corporates) including USC Bridge. The Bridge Corporates were established to function in a
temporary capacity and were formed by the NCUA Board as chartered private enterprises to
purchase selected assets, including CLF capital stock held by USC, and assume liabilities and
member shares of the five liquidated corporate credit unions in order to provide uninterrupted
services to the natural person credit unions that were members of the now failed corporate credit
unions. As of December 31, 2011 and 2010, $1,995,670 and $1,885,176 of CLF capital stock was
held by USC Bridge (in conservatorship), respectively, on behalf of its member corporate credit
union members.

As a part of the CSRP, the NCUA Board had been actively pursuing a credit union system-led
resolution to the Bridge Corporates to facilitate a number of transitions, including the CLF agent-
member structure. As of December 31, 2011, neither USC’s members nor NCUA was able to secure
the transition of USC’s products and services to a successor entity, thereby leading to the agency’s
decision to wind-down USC’s operations in 2012. Accordingly, it is likely that USC Bridge would
discontinue its role as the agent group representative for CLF and thereby redeem its capital stock by
providing a formal notice to redeem its shares as provided for under the Act. In such an event,
during the withdrawal period and subsequent thereto, redemption by CLF of its capital stock from
USC Bridge would materially reduce members’ equity and, as a result, the borrowing capacity of
CLF. The ultimate outcome of the CSRP may include future NCUA Board action. Capital stock
redemptions are funded through a reduction of cash. CLF investment decisions in 2011 were
managed with the goal of preserving maximum liquidity to meet any redemption requests during a
period of uncertainty resulting from changes caused by the CSRP. CLF, per the Act, has between
six and 24 months to fulfill/fund any redemption requests from members depending on their capital
stock account.




                                                   - 15 -
                   NATIONAL CREDIT UNION ADMINISTRATION
                        CENTRAL LIQUIDITY FACILITY
                          Notes to Financial Statements
                    As of and for the Years Ended December 31, 2011 and 2010
                                  (Dollars in thousands, except share data)




CLF’s capital stock accounts were composed of the following as of December 31, 2011 and 2010:

                                 As of December 31, 2011                As of December 31, 2010
                                 Shares         Amount                 Shares         Amount

          Regular members        1,288,203        $       64,411     1,414,633       $      70,732
          Agent members         39,913,407         1,995,670        37,703,526           1,885,176

                Total           41,201,610       $ 2,060,081        39,118,159       $ 1,955,908

Dividends on capital stock are declared based on available earnings and the dividend policy set by
the NCUA Board. Dividends are accrued monthly based on prior quarter-end balances and paid on
the first business day after the quarter-end. The dividend rates paid on capital stock for both regular
and agent members change quarterly.

10. MEMBER DEPOSITS

Member deposits represent amounts remitted by members over and above the amount required for
membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid on
required capital stock.

11. CONCENTRATION OF CREDIT RISK

In January 2009, the NCUA Board announced two additional actions, which provided immediate
enhancement to the corporate credit union system’s liquidity and capital positions. One of these
actions was a temporary NCUSIF guarantee of member shares in corporate credit unions. The
guarantee covers all shares through December 31, 2012 and included CLF’s deposit in the USC
Daily Transaction Share Account.

12. BORROWING AUTHORITY

CLF is authorized by statute to borrow, from any source, an amount not to exceed 12 times its
subscribed capital stock and surplus. Until October 1, 2008, Congress, through the appropriations
process, placed a limit on gross obligations at $1,500,000. However, effective October 1, 2008,
under Public Law 110-329, Consolidated Security, Disaster Assistance, and Continuing
Appropriations Act, 2009, Congress took action to remove the annual borrowing limitation of
$1,500,000 to enable CLF to borrow up to its full statutory authority. As of December 31, 2011 and
2010, CLF’s statutory borrowing authority was $49,758,251 and $47,205,862, respectively.

As described above, the borrowing authority amounts are referenced to subscribed capital stock of
the CLF. This continued level of borrowing authority is likely to be materially reduced, and this


                                                      - 16 -
                   NATIONAL CREDIT UNION ADMINISTRATION
                        CENTRAL LIQUIDITY FACILITY
                          Notes to Financial Statements
                    As of and for the Years Ended December 31, 2011 and 2010
                                 (Dollars in thousands, except share data)

change, if any, is dependent on the outcome of several future events, including the decisions about
the USC Bridge (in conservatorship) agent-member arrangement.

CLF borrows exclusively from Federal Financing Bank (FFB). NCUA maintains a note purchase
agreement with FFB on behalf of CLF. Under the terms of its agreement, CLF borrows from FFB as
needed. Under terms prescribed by the note purchase agreement, CLF executes promissory notes in
amounts as necessary and renews them annually. Advances made under the current promissory
notes cannot exceed $10,000,000 and cannot mature later than March 31, 2013. During 2010, CLF
borrowed amounts totaling $5,000 from FFB under one loan agreement, which CLF then loaned to a
member credit union. During 2011, CLF did not borrow any funds from FFB. As of December 31,
2011 and 2010, CLF had $10,000,000 and $35,000,000 available capacity to borrow under its
current promissory notes, respectively, and such funds are available through March 31, 2012 and
2011, respectively.

As of December 31, 2011, CLF was in compliance with its borrowing authority.

13. RELATED PARTY TRANSACTIONS

NCUA OF pays the salaries and related benefits of CLF’s employees, CLF’s building and operating
costs. Expenses are allocated by applying the ratio of CLF full-time equivalent employees to the
NCUA total. These expenses are reimbursed to NCUA OF quarterly. All other CLF reimbursement
expenses are paid annually. The total amount charged by NCUA was approximately $637 and $483,
respectively, for December 31, 2011 and 2010. Accounts payable includes approximately $171 and
$183, respectively, for December 31, 2011 and 2010, due to NCUA OF for services provided.

14. SUBSEQUENT EVENTS

Management evaluated all events and transactions that occurred after December 31, 2011 through
February 13, 2012, which is the date CLF issued these financial statements.

Two regular members merged with an agent member (continuing credit union). CLF received notice
on January 18, 2012 from the continuing credit union of its intent to withdrawal the two regular
members’ capital stock which was valued at $873 and $119, respectively, as of December 31, 2011.




                                                  - 17 -
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheets of the National Credit Union Administration Central Liquidity Fund
(CLF) as of December 31, 2011 and 2010 and the related statements of operations, members’ equity, and
cash flows (hereinafter referred to as “financial statements”) for the years then ended, and have issued our
report thereon dated February 13, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the CLF is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2011 audit, we considered the CLF’s internal control over
financial reporting by obtaining an understanding of the CLF’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the CLF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
CLF’s internal control over financial reporting. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

This report is intended solely for the information and use of the addressees, the fund’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




February 13, 2012
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                    Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheets of the National Credit Union Administration Central Liquidity Facility
(CLF) as of December31, 2011 and 2010, and the related statements of operations, members’ equity, and
cash flows (hereinafter referred to as “financial statements”) for the years then ended, and have issued our
report thereon dated February 13, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the CLF’s is responsible for complying with laws, regulations and contracts,
applicable to the CLF. As part of obtaining reasonable assurance about whether the CLF’s financial
statements are free of material misstatement, we performed tests of the CLF’s compliance with certain
provisions of laws, regulations and contracts, noncompliance with which could have a direct and material
effect on the determination of the financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations and contracts
applicable to the CLF. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, the fund’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




February 13, 2012




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
National Credit Union Administration
Community Development
Revolving Loan Fund
Financial Statements as of and for the
Years Ended December 31, 2011 and 2010, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
TABLE OF CONTENTS


                                                               Page

INDEPENDENT AUDITORS’ REPORT

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
 DECEMBER 31, 2011 AND 2010:

 Balance Sheets                                                 1

 Statements of Operations                                       2

 Statements of Changes in Fund Balance                          3

 Statements of Cash Flows                                       4

 Notes to Financial Statements                                 5-11

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                         Independent Auditors’ Report on Financial Statements


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration
Community Development Revolving Loan Fund (CDRLF) as of December 31, 2011 and 2010, and the
related statements of operations, changes in fund balance, and cash flows (hereinafter referred to as
“financial statements”) for the years then ended. These financial statements are the responsibility of the
CDRLF’s management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the CDRLF’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the CDRLF as of December 31, 2011 and 2010, and its results of operations, changes
in fund balance, and cash flows for the years then ended in conformity with U.S. generally accepted
accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated February 13,
2012, on our consideration of the CDRLF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.

The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.



February 13, 2012


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2011 AND 2010

                                                                2011             2010
ASSETS

Cash and Cash Equivalents (Notes 4 and 8)                   $   14,371,893   $   11,566,056

Loans Receivable (Notes 6, 7, and 8)                             2,756,164        5,482,614

Interest Receivable (Note 8)                                        6,772           12,984

Total                                                       $   17,134,829   $   17,061,654



LIABILITIES AND FUND BALANCE

Liabilities — Accrued Technical Assistance (Note 8)         $    1,513,828   $    2,194,094

Fund Balance:

 Fund Capital (Note 5)                                          13,565,689       13,387,777
 Accumulated Earnings                                            2,055,312        1,479,783


        Total Fund Balance                                      15,621,001       14,867,560


Total                                                       $   17,134,829   $   17,061,654

See accompanying notes to financial statements.




                                                      -1-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010


                                                            2011             2010

SUPPORT AND REVENUES:
 Interest on Cash Equivalents                           $       2,681    $       6,497
 Interest on Loans                                             41,761           72,925
 Appropriation Revenue (Note 5)                             1,069,588        1,250,000
       Total Support and Revenues                           1,114,030        1,329,422

EXPENSES:
 Technical Assistance (Note 2)                              1,153,780        1,394,720
 Cancellation of Aged Technical Assistance (Note 2)          (615,339)               -
 Provision for Loan Losses                                         60               48
       Total Expenses                                         538,501        1,394,768

NET INCOME/(LOSS)                                       $    575,529     $    (65,346)

See accompanying notes to financial statements.




                                                  -2-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010


                                                               Fund Capital
                                                               For Technical Total Fund Accumulated Total Fund
                                                   For Loans    Assistance    Capital    Earnings     Balance
December 31, 2009                                 $ 13,387,777 $ 1,250,000 $ 14,637,777 $ 1,545,129 $ 16,182,906

Appropriations Received (Note 5)                               -              -             -           -               -
Appropriations Expended                                        -     (1,250,000)   (1,250,000)          -      (1,250,000)
Appropriations Expired                                         -              -             -           -               -
Net Loss                                                       -              -             -     (65,346)        (65,346)

December 31, 2010                                     13,387,777              -    13,387,777    1,479,783     14,867,560

Appropriations Received (Note 5)                               -      1,250,000     1,250,000           -       1,250,000
Appropriations Expended                                        -     (1,069,588)   (1,069,588)          -      (1,069,588)
Appropriations Expired                                         -              -             -           -               -
Appropriation Rescission                                       -         (2,500)       (2,500)          -          (2,500)
Net Income                                                     -              -             -     575,529         575,529

December 31, 2011                                 $   13,387,777 $     177,912 $ 13,565,689 $    2,055,312 $   15,621,001

See accompanying notes to financial statements.




                                                             -3-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010


                                                                     2011              2010

CASH FLOWS FROM OPERATING ACTIVITIES:

Net Income/(Loss)                                                $     575,529     $     (65,346)
Adjustments to Reconcile Net Income/(Loss) to Net Cash Used in
  Operating Activities:
  Appropriations Expended                                            (1,069,588)       (1,250,000)
  Changes in Assets and Liabilities:
     Decrease in Interest Receivable                                     6,212             6,209
     (Decrease)/Increase in Accrued Technical Assistance              (680,266)          590,030
     Other                                                                  60                 -
       Net Cash Used in Operating Activities                         (1,168,053)        (719,107)

CASH FLOWS FROM INVESTING ACTIVITIES:
 Loan Principal Repayments                                            2,726,390        3,607,388
 Loan Disbursements                                                           -         (271,515)

       Net Cash Provided by Investing Activities                      2,726,390        3,335,873

CASH FLOWS FROM FINANCING ACTIVITIES:
 Appropriations Received 2011/2012                                    1,250,000                 -
 Appropriation Rescission                                                (2,500)                -
      Net Cash Provided by Financing Activities                       1,247,500                 -

NET INCREASE IN CASH AND CASH EQUIVALENTS                             2,805,837        2,616,766

CASH AND CASH EQUIVALENTS — Beginning of Year                        11,566,056        8,949,290

CASH AND CASH EQUIVALENTS — End of Year                          $   14,371,893    $ 11,566,056

See accompanying notes to financial statements.




                                                   -4-
  NATIONAL CREDIT UNION ADMINISTRATION
  COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
  NOTES TO FINANCIAL STATEMENTS
  AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010


1.      NATURE OF ORGANIZATION

 The Community Development Revolving Loan Fund (CDRLF) for credit unions was established
 by an act of Congress (Public Law 96-123, November 20, 1979) to stimulate economic
 development in low-income communities. The National Credit Union Administration (NCUA)
 and the Community Services Association (CSA) jointly adopted Part 705 of NCUA Rules and
 Regulations, governing administration of CDRLF, on February 28, 1980.

 Upon the dissolution of CSA in 1983, administration of CDRLF was transferred to the
 Department of Health and Human Services (HHS). From 1983 through 1990, CDRLF was
 dormant.

     The Community Development Credit Union Transfer Act (Public Law 99-609, November 6,
     1986) transferred CDRLF administration back to NCUA. The NCUA Board adopted
     amendments to Part 705 of NCUA Rules and Regulations on September 16, 1987, and began
     making loans/deposits to participating credit unions in 1990.

     The purpose of CDRLF is to stimulate economic activities in the communities served by
     low-income credit unions, which is expected to result in increased income, ownership, and
     employment opportunities for low-income residents, and other economic growth. The policy of
     NCUA is to revolve the loans to qualifying credit unions as often as practical in order to gain
     maximum impact on as many participating credit unions as possible.

2.      SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

     Basis of Presentation – CDRLF has historically prepared its financial statements in accordance
     with accounting principles generally accepted in the United States of America (GAAP), based on
     standards issued by the Financial Accounting Standards Board (FASB), the private sector
     standards setting body. The Federal Accounting Standards Advisory Board (FASAB) is the
     standards setting body for the establishment of GAAP with respect to the financial statements of
     Federal Government entities. FASAB has indicated that financial statements prepared based
     upon standards promulgated by FASB may also be regarded as in accordance with GAAP for
     Federal entities that have issued financial statements based upon FASB standards in the past.

     Basis of Accounting – CDRLF reports its financial statements on the accrual basis of accounting
     in conformity with GAAP.

     Cash Equivalents – The Federal Credit Union Act permits CDRLF to make investments in
     United States Government Treasury securities. All investments in 2011 and 2010 were cash




                                                   -5-
equivalents and were stated at cost, which approximates fair value. Cash equivalents are highly
liquid investments with original maturities of three months or less.

Loans Receivable and Allowance for Loan Losses – Historically, per regulation, CDRLF loans
were limited to a maximum amount of $300,000 per credit union with a fixed annual percentage
rate of not more than 3% and not less than 1%. Per NCUA policy, loans issued after January 1,
2002, carried a fixed rate of 1%. Interest and principal were repaid on a semiannual basis
beginning six months and one year, respectively, after the initial distribution of the loan. The
maximum term of each loan was five years. Loan demand was very low and CDRLF did not
issue any new loans in 2011.

During its October 2011 board meeting, the NCUA Board approved changes to Rule 705. The
changes update the rule to increase transparency, and are intended to improve its organization,
structure and ease of use by credit unions consistent with the mission of CDRLF, including
increasing loan demand. The final rule became effective December 2, 2011, and eliminates
specific reference to the range of interest rates that may be charged on a loan from the Fund.
Instead, it references the CDRLF’s Interest Rate Policy, which is located on NCUA’s website. It
provides greater flexibility regarding matching requirements as the mandatory requirement was
removed. The update also allows loan amounts in excess of $300,000 to be considered.
Implementation of revised Rule 705 will take place in 2012.

A provision for loans considered to be uncollectible is charged to the income statement when
such losses are probable and reasonably estimable. Provisions for significant uncollectible
amounts are credited to an allowance for loan losses, while de minimis amounts are directly
charged-off or recovered. Management continually evaluates the adequacy of the allowance for
loan losses based upon prevailing circumstances and an assessment of collectability risk of the
total loan portfolio as well as historical loss experience. On the basis of this analysis, no
allowance for loan losses was necessary as of December 31, 2011 and 2010. Accrual of interest
is discontinued on nonperforming loans when management believes collectability is doubtful.

Accrued Technical Assistance - CDRLF issues technical assistance grants to low-income credit
unions. Technical assistance expense is recognized when CDRLF makes a formal commitment
to the recipient credit union for technical assistance and other grants. Starting in 2011, CDRLF
performed a manual review of long term unspent grant awards (e.g. outstanding awards past the
period of eligibility) and completed formal steps to rescind substantially all of these grants. As a
result $615,339 was recognized as Cancellation of Aged Technical Assistance in the statement of
operations. These technical assistance awards were originally awarded from the accumulated
earnings and reverted back to accumulated earnings upon rescission.

The monies cancelled from multiyear funds will be returned to U. S. Treasury if appropriated
and subject to a cancellation period, usually five years after being appropriated.

Overhead Expenses – NCUA provides certain general and administrative support to CDRLF,
including salaries and certain supplies. The value of these contributed services is not charged to
CDRLF.




                                                -6-
 Revenue Recognition – Appropriation revenue is recognized as the related technical assistance
 expense is recognized. Total appropriation revenues will differ from total technical assistance
 expenses because not all technical assistance is funded by appropriations. Interest income on
 cash and cash equivalents and on loans is recognized when earned.

 Use of Estimates – The preparation of financial statements in conformity with GAAP requires
 management to make estimates and assumptions that affect the reported amounts of assets and
 liabilities, as well as the disclosure of contingent assets and liabilities at the date of the financial
 statements, and the reported amounts of revenues and expenses during the reporting period.
 Actual results could differ from management’s estimates.

 Income Taxes – CDRLF is exempt from Federal income taxes under Section 501(c)(1) of the
 Internal Revenue Code.

 Commitments and Contingencies – Liabilities for loss contingencies arising from claims,
 assessments, litigation, fines, and penalties and other sources are recorded when it is probable
 that a liability has been incurred and the amount can be reasonably estimated. Legal costs
 incurred in connection with loss contingencies are expensed as incurred.

3.      NEWLY IMPLEMENTED ACCOUNTING STANDARDS

     In 2011, CDRLF adopted the Accounting Standards Update (ASU) 2011-04, Amendments to
     Achieve Common Fair Value Measurement and Disclosure Requirements in GAAP and
     International Financial Reporting Standards, to the accounting standards on Fair Value
     Measurements and Disclosures (FASB ASC Topic 820). The amendment requires common fair
     value measurement and disclosure in GAAP and International Financial Reporting Standards.
     Consequently, the amendments change the wording used to describe many of the requirements in
     GAAP for measuring fair value and disclosing information about fair value measurements. ASU
     2011-04 will be effective for the Fund’s financial statements as of and for the year ended
     December 31, 2012. This adoption will not have a material impact on its balance sheets or
     statements of operation.

     In January 2010, ASU 2010-06, Improving Disclosures about Fair Value Measurements,
     provided an amendment to ASC Topic 820, Fair Value Measurements and Disclosures. These
     amendments require new disclosures pertaining to activity in Level 3 fair value measurements.
     This adoption did not have a material impact on its balance sheets or statements of operation.

     In July 2010, ASU 2010-20, Disclosures about the Credit Quality of Financing Receivables and
     the Allowance for Credit Losses, provided an amendment to ASC Topic 310, Receivables. The
     objective of these amendments is for an entity to provide disclosures that facilitate financial
     statement user’s evaluation of the following: 1) the nature of credit risk inherent in the entity’s
     portfolio of financing receivable, 2) how that risk is analyzed and assessed in arriving at the
     allowance for credit losses, and 3) the changes and reasons for those changes in the allowance
     for credit losses. The existing disclosures are amended to require disclosures about an entity’s
     financing receivables on a disaggregated basis. The amendments also require additional
     disclosures about financing receivables. This adoption did not have a material impact on its



                                                     -7-
  balance sheets or statements of operation as the outstanding loans are fairly homogeneous in
  their nature and risk characteristics.


4.      CASH AND CASH EQUIVALENTS

 CDRLF’s cash and cash equivalents as of December 31, 2011 and December 31, 2010 are as
 follows:

                                                                 2011             2010
                      Deposit U.S. Treasury                   $ 4,371,893      $ 5,566,056
                      U.S. Treasury Overnight Investments      10,000,000         6,000,000
                                                              $14,371,893      $ 11,566,056


5.      GOVERNMENT REGULATIONS

     CDRLF is subject to various Federal laws and regulations. Assistance, which includes lending
     and technical assistance, is limited to the amount appropriated by Congress to date for CDRLF,
     which includes accumulated earnings. Federally-chartered and state-chartered credit unions with
     a low-income designation are eligible to participate in CDRLF’s loan and technical assistance
     program.

     Since inception, Congress has appropriated $13.4 million for the revolving loan component of
     the program, and this component is governed by Part 705 of NCUA Rules and Regulations.

  During the year ended December 31, 2011, CDRLF received appropriations for technical
  assistance in the amount of $1,250,000 for Federal fiscal years (FY) 2011-2012. Of the
  $1,250,000 appropriation, $1,069,588 was expended as of December 31, 2011. These amounts
  were designated to be used for technical assistance, and no amounts were designated to be used
  as revolving loans. The appropriations for technical assistance for FY 2011-2012 are not yet
  subject to cancellation as it expires on September 30, 2012.

  CDRLF received no appropriation in 2010 as it was received from Congress in December of
  2009.

  In 2011, $2,500 of the Federal FY 2011–2012 appropriation was rescinded.

  No appropriations were remitted to the U.S. Treasury in 2010 upon expiration for the year of FY
  2005.




                                                  -8-
6.   LOANS RECEIVABLE

  Receivables consisted of the following as of December 31, 2011 and 2010.

                                                               2011                 2010
       Balance as of beginning of year                      $ 5,482,614        $    8,818,487
       Add: Loans disbursed                                            -              271,515
       Less: Loan repayments                                  (2,726,390)          (3,607,388)
       Less: Other                                                   (60)                   -

          Loans receivable as of end of year                $      2,756,164   $   5,482,614

       Changes in the allowance for loan losses consisted
       of the following:

       Balance as of beginning of year                      $              -   $            -
       Decrease (increase) in allowance                                    -                -

          Accounts for loan losses as of end of year        $              -   $            -

       Loans receivable, net as of end of year              $      2,756,164   $   5,482,614


 Loans outstanding as of December 31, 2011, are scheduled to be repaid during the following
 subsequent years:

                                                            2011

                      2012                             $ 1,690,615
                      2013                                 521,912
                      2014                                 491,909
                      2015                                  51,728
                      2016                                       -
                      Loans Outstanding                  2,756,164
                      Allowance for loan losses                  -
                      Total Loans Receivable           $ 2,756,164


  CDRLF has the intent and ability to hold its loans to maturity. CDRLF anticipates realizing the
  carrying amount in full.




                                                   -9-
7.      CONCENTRATION OF CREDIT RISK

     As of December 31, 2011 and December 31, 2010, there are no significant geographic or
     individual counterparty concentrations of credit risk in the loan portfolio. As discussed in
     Note 1, CDRLF provides loans to credit unions that serve predominantly low-income
     communities.

  NCUA Rules and Regulations Section 705.7 permits the classification of the loan in the
  participating credit union’s accounting records as a non-member deposit. As a non-member
  deposit, $250,000 per credit union is insured by the National Credit Union Share Insurance Fund
  (NCUSIF), a related party. The aggregate amount of uninsured loans totaled $0 and $7,021 as of
  December 31, 2011 and 2010, respectively.

8.      ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

  The fair value hierarchy prioritizes the inputs to valuation techniques used to measure fair value.
  The hierarchy gives the highest priority to unadjusted quoted prices in active markets for
  identical assets or liabilities (level 1 measurements) and the lowest priority to measurements
  involving significant unobservable inputs (level 3 measurements). The three levels of the fair
  value hierarchy are as follows:

        •   Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or
            liabilities that CDRLF has the ability to access at the measurement date
        •   Level 2 inputs are inputs other than quoted prices included within Level 1 that are
            observable for the asset or liability, either directly or indirectly
        •   Level 3 inputs are unobservable inputs for the asset or liability.

  The fair value of an instrument is the amount that would be received to sell an asset or would be
  paid to transfer a liability in an orderly transaction between market participants by the
  measurement date.

  Loans Receivable – Fair value is estimated using an income approach by discounting each
  individual loan’s projected future cash flow. CDRLF believes that the discount rate reflects the
  pricing and is commensurate with the risk of the loans to CDRLF. Loans are valued yearly on
  December 31, 2011.

     Other – The carrying amounts for cash and cash equivalents, interest receivable, and accrued
     technical assistance approximate fair value because of the short maturity of these instruments.




                                                    - 10 -
  The following table presents the carrying value amounts and established fair values of CDRLF’s
  financial instruments as of December 31, 2011 and 2010.

                                                     2011                                               2010
                                     Carrying Amount   Estimated Fair Value             Carrying Amount   Estimated Fair Value

     Assets:
      Cash and cash equivalents      $      14,371,893   $              14,371,893      $      11,566,056   $        11,566,056
      Loans receivable                       2,756,164                   2,776,792              5,482,614             5,496,833
      Interest receivable                        6,772                       6,772                 12,984                12,984

     Liabilities:
      Accrued technical assistance           1,513,828                   1,513,828              2,194,094             2,194,094



9.       RELATED PARTY TRANSACTIONS

  NCUA, in supporting the activities of CDRLF, provides for the administration of CDRLF. The
  administrative costs paid by NCUA’s Operating Fund (OF) are directly related to the percentage
  of employee’s time spent on CDRLF. The administrative cost calculation takes into account the
  employees’ salary, benefits, travel, training, and certain “other” costs (e.g., telephone, supplies,
  printing, and postage).

  For the years ending December 31, 2011 and 2010, NCUA, through the OF, paid the following
  overhead expenses on
  behalf of CDRLF:
                                                              2011                   2010

                                         Employee            $ 330,651           $ 387,233
                                         Other                  19,989              15,519

                                         Total               $ 350,640           $ 402,752




 10. SUBSEQUENT EVENTS

  Subsequent events have been evaluated through February 13, 2012, which is the date the
  financial statements were available to be issued, and management determined that there are no
  other items to disclose.




                                                               - 11 -
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006


             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheets of the National Credit Union Administration Community Development
Revolving Loan Fund (CDRLF) as of December 31, 2011 and 2010 and the related statements of
operations, changes in fund balance, and cash flows (hereinafter referred to as “financial statements”) for
the years then ended, and have issued our report thereon dated February 13, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the CDRLF is responsible for establishing and maintaining effective internal control.
In planning and performing our fiscal year 2011 audit, we considered the CDRLF’s internal control over
financial reporting by obtaining an understanding of the CDRLF’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the CDRLF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
CDRLF’s internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

This report is intended solely for the information and use of the addressees, the fund’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.



February 13, 2012


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                    Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheets of the National Credit Union Administration Community Development
Revolving Loan Fund (CDRLF) as of December 31, 2011 and 2010, and the related statements of
operations, changes in fund balance, and cash flows (hereinafter referred to as “financial statements”) for
the years then ended, and have issued our report thereon dated February 13, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the CDRLF is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to the CDRLF. As part of obtaining reasonable assurance about whether the
CDRLF’s financial statements are free of material misstatement, we performed tests of the CDRLF’s
compliance with certain provisions of laws, regulations, contracts, grant agreements, and noncompliance
with which could have a direct and material effect on the determination of the financial statement amounts,
and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04. We limited our
tests of compliance to the provisions described in the preceding sentence, and we did not test compliance
with all laws, regulations, contracts, and grant agreements applicable to the CDRLF. However, providing
an opinion on compliance with those provisions was not an objective of our audit, and accordingly, we do
not express such an opinion.

The results of our other tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, the fund’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.



February 13, 2012




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
